        PUBLIC
       RELEASE


      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

            NMFS Laboratory Structure
               Should Be Streamlined

 Audit Report No. STL-8982-8-0001 / November 1997




            Office of Audits, Seattle Regional Office
                                                         CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          Purpose and Scope of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          NORTHEAST FISHERIES SCIENCE CENTER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                    Milford Laboratory Should Be Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                    Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                    Funds to Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                    Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                    OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          SOUTHEAST FISHERIES SCIENCE CENTER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                    National Seafood Inspection Laboratory Should Be Closed . . . . . . . . . . . . . . . . 9

                    Bay St. Louis Laboratory Programs Should Be Moved . . . . . . . . . . . . . . . . . . . 10

                    Panama City Laboratory Programs Should Be Moved . . . . . . . . . . . . . . . . . . . . 10

                    Oxford Laboratory Should Be Transferred . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                    Funds to Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
      ALASKA FISHERIES SCIENCE CENTER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

      NORTHWEST FISHERIES SCIENCE CENTER . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

              Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

              OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

       SOUTHWEST FISHERIES SCIENCE CENTER . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

              La Jolla Facility Should Be Vacated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

              Funds to Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

              Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

              OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


Appendix:     A -- List of NMFS Research Facilities
              B -- Northeast Fisheries Science Center Analysis
              C -- Southeast Fisheries Science Center Analysis
              D -- Alaska Fisheries Science Center Analysis
              E -- Northwest Fisheries Science Center Analysis
              F -- Southwest Fisheries Science Center Analysis
              G -- Closure/Consolidation Criteria
              H -- Geologic Perspective: La Jolla
              I -- OIG Reliance on the NMFS Laboratory Consolidation Study Data
              J -- Agency Response
                                    EXECUTIVE SUMMARY

The National Marine Fisheries Service (NMFS) is responsible for ensuring the conservation and
management of the nation’s living marine resources. To accomplish its mission, NMFS relies on
an extensive laboratory network of nearly 30 facilities nationwide. Field operations are divided
into five regions: Northeast, Southeast, Alaska, Northwest, and Southwest. Many NMFS’s
facilities are greatly in need of repair, and several renovation and new construction projects are
planned or underway.

We conducted a performance audit to assess streamlining and reconfiguration opportunities within
the NMFS laboratory network. During our audit, we evaluated the need for each facility to be at
its current location, the overall condition of each facility, and the utilization of both current and
planned facilities. We also explored any special considerations related to individual facilities. We
reviewed research programs for relevance to NOAA’s mission and duplication of effort (both
within NMFS and with outside organizations). We visited nearly all NMFS laboratories.

We concluded that, in general, the NMFS laboratories are conducting high priority research in
well-utilized facilities. However, we also identified several opportunities for NMFS to streamline
its field structure:

!      In the Northeast Fisheries Science Center, we recommend closing the Milford laboratory
       and transferring its programs to the new James J. Howard Marine Sciences laboratory.
       We determined that Milford is conducting low priority research in an underutilized facility.
       Our analysis has shown that benefits of approximately $5 million could be realized over a
       five-year period by closing the Milford facility (see page 5).

!      In the Southeast Fisheries Science Center, we recommend closing the National Seafood
       Inspection laboratory (NSIL). We also recommend moving the programs and personnel
       from the Bay St. Louis and Panama City laboratories into space at the Pascagoula
       laboratory previously occupied by the NSIL. We recommend transferring the Oxford Lab
       and most of its programs to the State of Maryland. Programmatic work now being done
       at Oxford, which would continue as a NMFS responsibility, should be transferred to the
       Beaufort Lab. Both NSIL and Oxford are conducting low priority research that could be
       performed by other agencies. We estimate that closing NSIL will yield approximately
       $2.6 million in benefits over a five-year period, and that NMFS will realize net benefits of
       approximately $2.4 million over a five-year period by transferring Oxford (see pages 9 and
       11).

       Our review determined that the high priority research being conducted at Bay St. Louis
       and Panama City could be more cost-effectively performed at Pascagoula. Our analysis
       has shown that moving Bay St. Louis results in approximately $257,000 in benefits over a
       five-year period, and that moving Panama City results in approximately $1.6 million in
       benefits over a five year period (see pages 9 - 11).




                                                  i
!      In the Alaska Fisheries Science Center, we noted that NMFS is considering transferring
       some programs from the Sand Point facility in Seattle to the proposed Auke Cape, Alaska,
       facility upon completion. We evaluated this option and recommended that NMFS should
       not implement this transfer due to potential programmatic, utilization, and cost
       inefficiencies. We also noted that the space estimates for the planned Auke Cape facility
       are inflated and that cost estimates for this project have nearly doubled since the OIG last
       addressed this issue in 1994 (see page 15).

!      In the Northwest Fisheries Science Center, we considered the option of moving the
       Montlake laboratory programs to the Sand Point facility. This option is tied to the
       potential recommendation mentioned above to re-locate some of the Alaska Center’s Sand
       Point programs to the proposed Auke Cape facility. Our analysis revealed that this option
       should also not be implemented because of inadequate types and amounts of space
       available at Sand Point (see page 17).

!      In the Southwest Fisheries Science Center, we recommend vacating both the Tiburon lab,
       as planned by NMFS, and the La Jolla laboratory due to safety reasons, and transferring
       their programs and personnel to Honolulu, Sand Point, Newport, and a proposed Santa
       Cruz facility. As part of this recommendation, we are suggesting that the proposed
       Tiburon replacement facility, at Santa Cruz be expanded to accommodate programs and
       personnel from La Jolla. The net present value over a five-year period of costs associated
       with expanding construction efforts at Santa Cruz and transferring La Jolla programs to
       Santa Cruz, Sand Point, Newport, and Honolulu is approximately $20 million. Compared
       to the potential costs associated with building a replacement facility in La Jolla due to an
       inevitable emergency situation, which we estimate at approximately $33.5 million,
       proactive measures to vacate La Jolla now would provide benefits in the form of a cost
       avoidance of approximately $13.5 million (see page 21 and Appendix F).

By implementing our recommendations, NMFS could put approximately $6 million of funds to
better use. The $6 million represents the net present values of benefits over costs for the two-
years following implementation of our recommendations. As required by OIG policy, these
claimed funds to be put to better use have been limited to a two-year period for reasons of
conservatism and consistency. However, as summarized on the following page, projected savings
over a five-year period would be approximately $25.3 million based on the net present value of
benefits over costs for that period. We believe that the five-year period offers a more meaningful
and useful analysis for studies of this nature because analysis can sometimes be distorted by
significant first- and second-year costs. NOAA’s June 1996 consolidation study was also based
on a five-year benefit analysis. The five-year cost/benefit analyses can be found in Appendices B,
C, and F.




                                                ii
The net present value of benefits over costs by lab is summarized below:

  Recommendations:                                                   Net present      Net present
                                                                     value of         value of
                                                                     benefits over    benefits over
                                                                     two years        five years
  Close the Milford lab and move programs to the Howard lab.           $2,600,000        $ 5,012,000
  Close the National Seafood Inspection Laboratory.                        884,000         2,565,000
  Transfer the Oxford lab                                                1,601,000         2,379,000
  Close the Bay St. Louis lab and move programs to the
  Pascagoula lab.                                                       (149,000)            257,000
  Close the Panama City lab and move programs to the
  Pascagoula lab.                                                        1,092,000         1,609,000
  Close the Tiburon and La Jolla labs and move programs to the
  proposed Santa Cruz lab, and to the Sand Point, Newport, and
  Honolulu labs.                                                                -0-      13,530,0001
     Total                                                             $6,028,000        $25,352,000

With the exceptions of consolidating the Panama City lab, and vacating the Tiburon lab and the
Southwest Fisheries Science Center in La Jolla, NOAA disagreed with our findings and
recommendations. NOAA also disagreed with our net present value calculations of costs and
benefits associated with our recommendations, primarily due to their concern that our analyses
appeared to be based on the termination of employees involved in the programs at “to be closed”
facilities and that we appeared to anticipate the continuation of high priority programs at other
facilities without staff to conduct them. NOAA, however, appears to have misread our net
present value cost/benefit analysis sections. Our analyses of facilities conducting high priority
research included the assumption that any position vacancies resulting from program transfers
would be backfilled at the new site. Therefore, NOAA’s concerns are unfounded and no changes
were needed to our analyses to address NOAA’s comments. Summaries of NOAA’s comments
are presented in the appropriate sections of this report. For reasons stated after each section, we
did not agree with NOAA’s comments and reconfirm our recommendations.
NOAA’S response is included as Appendix J to the report. Due to their length, we did not
include the appendices to the NOAA response. The appendices may be obtained from the OIG
upon request.



       1
        Note that the $13,530,000 in benefits identified in the La Jolla analysis do not represent
       actual funds available to NOAA for other uses, but rather represent a potential cost
       avoidance compared to the alternative of emergency closure and construction of a
       replacement facility.




                                                iii
                                       INTRODUCTION

The National Marine Fisheries Service (NMFS) of the National Oceanic and Atmospheric
Administration is responsible for ensuring the conservation and management of the nation’s living
marine resources. Research is conducted within the U.S. Exclusive Economic Zone (EEZ) and
the marine and estuarine habitats upon which living marine resources depend. NMFS is
responsible not only for developing scientific information and data to be used as the basis for
fishery management plans and recommendations on habitat use, but also for promulgating and
enforcing regulations for the management plans developed by the eight Regional Fishery
Management Councils for the Secretary of Commerce.

NMFS relies on an extensive laboratory network of nearly 30 facilities nationwide for research,
data collection, and analysis necessary to accomplish its objectives. Field operations are divided
into five regions: Northeast, Southeast, Alaska, Northwest, and Southwest. A complete list of
NMFS laboratories and field stations is included in Appendix A. A map of the major labs follows:
The average age of the major NMFS laboratories is over 30 years; however, 12 are substantially
older. Many of the facilities are greatly in need of repair. NOAA is currently involved in several
renovation and new construction projects--major projects are planned or in process in Auke
Cape, Alaska; Honolulu, Hawaii; Galveston, Texas; Lafayette, Louisiana; Charleston, South
Carolina; Santa Cruz, California; Kodiak, Alaska; and Oxford, Maryland.

Purpose and Scope of Audit

The purpose of our audit was to assess streamlining and reconfiguration opportunities within the
NMFS laboratory network. We have visited nearly all NMFS laboratories during our audit. Our
fieldwork began in August 1996 and ended in February 1997.

During our review, we evaluated the need for each facility to be at its current location, the overall
condition of each facility, and the utilization of both current and planned facilities. We also
explored any special considerations related to individual facilities. We reviewed research
programs for relevance to NOAA’s mission and duplication of effort (both within NMFS and with
outside organizations). Through this process, we gained a comprehensive understanding of
NMFS’s current and expected facility and program status. We were then able to identify several
consolidation options. We performed a cost/benefit analysis on each of these options and
recommended implementing those options with positive net benefits, unless overriding factors
applied. Our analyses are incorporated throughout this report, and a detailed description of our
methodology is attached as Appendix G.

We reviewed NMFS’s management controls over the efficiency and effectiveness of its laboratory
structure and confirmed that NOAA does not have a successful record of closing laboratories.
We did not identify any laws applicable to our audit objectives. We identified OMB Circular A-
76 as a regulation applicable to our audit objectives. The availability of private sector laboratory
services is discussed on page 9 of this report.

NOAA conducted a consolidation study and issued a report in June 1996. NOAA’s study was
updated in June 1997. We relied on some of the data NOAA obtained for the study, primarily the
data related to the prioritization of NMFS science programs at the labs. A description of the
NOAA data used in our analyses is presented in Appendix I to the report. We relied on
computer-processed data for only background and informational purposes.

This review was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




                                                 2
                           FINDINGS AND RECOMMENDATIONS

NMFS conducts research at laboratories located throughout the United States. In general, these
labs are conducting high priority research in well-utilized facilities. However, our review did
identify several opportunities for NMFS to streamline its field structure.

In the Northeast Fisheries Science Center, we recommend closing the Milford laboratory and
transferring its programs to the new James J. Howard Marine Sciences laboratory. In the
Southeast Fisheries Science Center, we recommend closing the National Seafood Inspection
Laboratory (NSIL). We also recommend moving the programs and personnel from the Bay St.
Louis and Panama City laboratories into space at the Pascagoula laboratory previously occupied
by NSIL. We recommend transferring the Oxford lab and most of its research to the State of
Maryland. In the Alaska and Northwest Fisheries Science Centers we determined that options
involving (1) the transfer of the Alaska Center’s programs at the Sand Point facility in Seattle to
the proposed facility at Auke Cape, and (2) the transfer of Northwest Center programs at
Montlake to Sand Point should not be implemented. In the Southwest Fisheries Science Center,
we recommend vacating the Tiburon and La Jolla laboratories and transferring their programs and
personnel to Honolulu, Sand Point, Newport, and the proposed Santa Cruz facility. As part of
this recommendation, we are suggesting that the proposed Santa Cruz facility be expanded to
accommodate extra programs and personnel. Our recommendations are summarized graphically
below:




                                                 3
NORTHEAST FISHERIES SCIENCE CENTER

The Northeast Center consists of a Fisheries
Science Center headquartered in Woods Hole,
Massachusetts, and five major laboratories located
in Woods Hole; Narragansett, Rhode Island;
Milford, Connecticut; Sandy Hook, New Jersey;
and Washington, D.C. The Northeast Center is
currently pursuing investigations into (1) the
physical and chemical processes affecting the
abundance of marine resources, (2) the effects of
pollution and habitat degradation and loss on
marine resources, and (3) the factors controlling the
variability in abundance, recruitment, and use of
living marine resources and the ability to predict
these factors. The purpose of these investigations
is to define the limits to which habitat and living
resources of the Northwest Atlantic can be modified and still ensure that living resource
populations can sustain themselves at levels consistent with prevailing fishery management goals.

The Woods Hole laboratory was established in 1871. The lab studies fish population dynamics and
conducts stock assessments in support of fisheries management. Researchers interact with the
Woods Hole Oceanographic Institute and the Marine Biological Laboratory, both located near the
NMFS lab. The Woods Hole lab also provides docking facilities for the Center’s two large
research vessels, the R/V Delaware and the R/V Albatross.

The Narragansett laboratory, established in 1966, principally studies large marine ecosystems.
Narragansett has the rare capability to study the early life stages of cod and haddock because of
the quality of seawater available there. Much information is obtained from satellite remote sensing
data accessed through the lab’s CoastWatch node and through cooperation with the University of
Rhode Island.

The Milford laboratory investigates growth, normal life functions, diseases, and genetics of fish
and shellfish. The lab was established in 1931 to study the biological problems of the Connecticut
oyster industry. It has extensive aquaculture facilities that are currently used to conduct scallop
and tautog (blackfish) aquaculture research. It also maintains a collection of marine unicellular
algae.

The James J. Howard laboratory conducts studies on human-induced changes in the marine
environment and their effects on the distribution and abundance of marine populations. The lab
was constructed in 1993 following the destruction by fire of its predecessor, the Sandy Hook lab.
This facility, which is in excellent condition, is being leased from the state and has extra space
available.




                                                 4
The National Systematics Laboratory (NSL) is located at the Smithsonian Museum of Natural
History in Washington, D.C. NSL is the center for the taxonomic identification of fishes,
crustaceans, and squids for all of NMFS. This is a small operation (less than 10 FTEs) being
conducted in space provided by the Smithsonian Institution at no cost.

We toured all of these facilities except for NSL, spoke with staff in each major program area, and
interviewed collaborators and customers as appropriate. After considering the options available in
the Northeast, we determined that NMFS resources could be used more efficiently by closing the
Milford lab and relocating its programs to the James J. Howard lab. Milford’s programs would
remain at the James J. Howard lab at a scaled back level more appropriate to their relative priority.

Milford Laboratory Should Be Closed

The Milford laboratory should be closed and its programs transferred to the new James J. Howard
Marine Sciences laboratory at Sandy Hook. The Milford lab conducts science programs in finfish
and shellfish aquaculture and in evaluation of habitats for stock enhancement. These programs are
relatively low priority compared to high priority fisheries management and endangered species
research programs at other NMFS labs. The lab’s research is isolated from the mainstream of the
Center’s and NMFS’s activities. The species being studied at Milford are a near-shore resource
that comes under state management and are not included under a federal fishery management plan.

The Milford facility is underutilized and the overall condition of its buildings is only fair. Given the
current fiscal environment, NMFS should strive for the most efficient and effective use of its
limited resources by concentrating on high priority research related to its federal mandated
requirements and on streamlining its field structures. Maintaining the Milford lab and continuing
its programs at current levels represents an inefficient use of agency funds.

Our analysis and site visits have identified the James J. Howard lab as a suitable host facility for
Milford’s programs and personnel. The lab contains a sophisticated seawater system with a
modern suite of wet, dry, and analytical labs and is running under capacity. NMFS occupies
roughly 75 percent of the James J. Howard lab through a lease agreement with the state of New
Jersey. NMFS may occupy the remaining space at any time with only a small increase in operating
costs. Our analysis of the space utilization and availability at both labs has shown that the James J.
Howard lab has the necessary type and amount of space to absorb the Milford lab’s programs and
personnel at a scaled back level. The lab is already equipped to support some of the research being
conducted by Milford, especially with tautogs and algae.

Our analysis has shown that benefits of approximately $5,012,000 could be realized over a     five-
year period by closing the Milford facility. Our assumptions and analyses are detailed in Appendix
B.




                                                   5
Recommendation

We recommend that the Milford laboratory be closed and its programs and personnel transferred
to the new James J. Howard Marine Sciences laboratory at Sandy Hook.

Funds to Be Put to Better Use

By implementing our recommendation, NMFS could put approximately $2.6 million of funds to
better use. The $2.6 million represents the net present value of benefits over costs for the two-
years following implementation of our recommendation. The five-year cost/benefit analysis shows
benefits totaling approximately $5 million and can be found in Appendix B.

Agency Response

NOAA disagreed with our recommendation to close the Milford Laboratory and transfer its
programs to the Howard Marine Laboratory at Sandy Hook. NOAA also disagreed with our
estimate of a $5 million net present value savings from closure and relocation of programs, because
NOAA thought our calculations did not include the staffing costs for the programs to be
transferred to the Howard lab.

NOAA also asserts that aquaculture, the area of research historically conducted at Milford, is no
longer a lower priority among NMFS’s missions, and that state, university, and Federal synergy is
relatively high at Milford. Finally, NOAA asserts that it makes no sense to disrupt programs at
Milford simply to take advantage of underutilized space at the Howard lab. NOAA proposes
instead that new full-time equivalents (FTEs) be hired to fill the underutilized space.

OIG Comments

NOAA apparently misinterpreted our calculations of the estimated savings of closing Milford and
transferring programs, and associated personnel, to the Howard Lab. Our calculations included
the assumption that personnel associated with on-going research at Milford would be transferred
to Howard, possibly at a scaled back level to reflect both the facilities available at Howard and the
relatively low priority of the research being conducted at Milford. Our net present value analysis
included permanent change of station costs for transferring Milford personnel.

We have no reason to dispute NOAA’s assertion that aquaculture is becoming a higher priority
area of research. However, we note that as recently as NOAA’s own Laboratory Consolidation
Study (June 1996), Milford’s programs, and aquaculture in general, were ranked as a relatively low
priority by NMFS managers. If aquaculture is indeed becoming increasingly important, transfer of
the Milford work to the state-of-the-art, but underutilized Howard facility is even more advisable.
Synergy among state, university, and Federal facilities is irrelevant in this instance as both Milford
and Howard were rated equal in this category by NOAA’s Laboratory Consolidation Study.
Finally, NOAA’s assertion that personnel should be hired merely to fill underutilized space at
Howard is unwise given the fiscal constraints on NMFS and the Department in general.




                                                  6
SOUTHEAST FISHERIES SCIENCE CENTER

The Southeast Center consists of
eight laboratories located in
Galveston, Texas; Bay St. Louis,
Mississippi; Pascagoula,
Mississippi; Panama City,
Florida; Miami, Florida;
Charleston, South Carolina;
Beaufort, North Carolina; and
Oxford, Maryland. Also located
in the Southeast, but under the
organizational authority of
NMFS headquarters, is the
National Seafood Inspection
laboratory in Pascagoula. The
Southeast Center directorate is
colocated with the Miami
laboratory. The directorate oversees and plans Center research programs; coordinates Center
fishery statistics activities, scientific staff support, and administrative support; and operates fishery
logbook programs and the state/federal statistics program. The directorate also plans, oversees,
and coordinates Center computer operations and information management tasks and operates the
Miami facility’s large computers.

The Galveston laboratory was established in 1950 on the site of the U.S. Army’s deactivated Fort
Crockett. NMFS shares the facilities with NOAA’s Sea Grant program and Texas A&M
University, with which it has a cooperative agreement. Galveston specializes in shrimp population
dynamics; sea turtle biology and physiology; habitat conservation and enhancement; and the
rearing, tagging and releasing of Kemp’s Ridley sea turtles. The Galveston complex is currently
undergoing a major renovation totaling approximately $7 million.

Bay St. Louis and Pascagoula are the two main facilities known organizationally as the Mississippi
laboratories. The Bay St. Louis lab is located in leased space at the John C. Stennis Space Center
in Bay St. Louis. This lab concentrates on satellite remote sensing, data management, and
engineering. Bay St. Louis also houses a CoastWatch node. The Pascagoula lab, established in
1950, focuses on resource surveys, harvesting systems/gear research to improve and support
survey activities, by-catch issues, and latent resource harvesting/sampling techniques. Endangered
and protected species research and surveys are also conducted. The NOAA vessels R/V Chapman,
R/V Oregon II, and R/V Caretta are docked in Pascagoula, and the main facility is in fair condition.

Also located in Pascagoula and colocated with the Pascagoula lab is the NSIL. NSIL provides
scientific credibility, oversight, risk analysis, and technical information support services to improve
consumer protection in fisheries consumption by means other than direct inspection for the NMFS




                                                    7
National Seafood Inspection Program, other federal/state agencies, the seafood industry, and the
general public.

The Panama City laboratory was established in 1966 to conduct research on marine recreational
resources and their needs. Current species of primary interest are the coastal pelagics and reef fish.
Research projects being conducted include studies on stock distribution, abundance, and
migrations; stock identification; predator-prey relationships; age and growth studies; and early life
history research. The lab is in poor condition.

The Miami laboratory, built in 1964, houses over 60 FTEs. Originally known as the Tropical
Atlantic Biological Laboratory for research on tropical oceanography and tropical tuna fisheries,
the Miami lab currently manages the Oceanic Pelagics, Reef Resource, and Protected Species
programs for the Southeast Center. Emphasis is on population dynamics, fisheries biology, and
population assessments for fish, marine mammals, and sea turtles. Research is coordinated with
the University of Miami.

The Charleston laboratory is located at Fort Johnson on James Island, South Carolina. It was
established in 1978 after being relocated from College Park, Maryland. The lab is surrounded by
several cooperative agencies and universities. NOAA is leasing this facility from the State of
South Carolina and several new construction projects are being planned, including renovations to
the existing lab and the construction of a new facility to accommodate the lab’s collaborators.
Major research thrusts include marine biotechnology, marine biotoxin, marine ecotoxicology, and
seafood safety research.

The Beaufort laboratory, established in 1899, is located on Pivers Island, North Carolina, adjacent
to Duke University’s marine laboratory. Beaufort houses the Southeast Regional CoastWatch
node, thereby having access to and responsibility for disseminating near real-time data from
satellites and other environmental sensors to federal, state, and academic institutions.
Approximately 70 FTEs and numerous National Research Council post-doctoral fellows and other
contractors are stationed at Beaufort. Major research efforts involve protected species, marine
mammals, habitat research, and Atlantic coastal research.

The Beaufort lab recently acquired the Oxford laboratory as a field station from the Northeast
Center. Oxford was established in 1960 to study oyster disease in the Chesapeake Bay. Slated for
closure by NOAA, the Oxford lab was instead transferred to the Southeast Center and its
programs are scheduled to be revitalized. Oxford is currently conducting marine disease research
and has recently initiated a marine mammal and sea turtle stranding program. The lab is colocated
with a Maryland state research laboratory.

After analyzing the condition, cost, and utilization of each of these facilities, as well as the various
programs being conducted, we determined that consolidations of several labs would increase
NMFS’s overall efficiency and effectiveness. We recommend that the NSIL be closed and the
associated personnel be released from service. We further recommend that the Bay St. Louis and
Panama City facilities be vacated and the programs and personnel moved into space at the
Pascagoula facility previously occupied by NSIL. Finally, we recommend that the Oxford lab be



                                                     8
transferred to the state of Maryland. Programs that are not transferred to the state should be
phased-out, outsourced, or continued at the Beaufort lab. Our assumptions and analyses are detailed
in Appendix C.

National Seafood Inspection Laboratory Should Be Closed

NSIL should be closed, its programs terminated, and the associated personnel released from service.
The NSIL is conducting low priority research. Furthermore, several commercial laboratories are
currently performing the same kinds of analyses as NSIL does. Given the current fiscal environment,
NMFS should strive for the most efficient and effective use of its limited resources by concentrating
on high priority research related to its federal mandated requirements and on streamlining its field
structures. OMB Circular A-76 directs that the government should not compete with the private
sector. Continuing the NSIL programs is not only an inefficient use of agency funds, but it also
undermines our nation’s competitive enterprise system.

NSIL has provided scientific oversight of the NMFS inspection program. In 1996, NSIL performed
4,227 analytical tests for heavy metals, bacteriological pathogens such as Listeria, Salmonella, and
Staphylococcus, and other contaminants, toxins and pathogens. While some of samples to be tested
came from the NMFS inspection service, more than half of the tests were self-initiated by NSIL.
The number of externally generated sample testing will decrease significantly because, after
December 1997, processors will be required to implement the Hazards Analysis Critical Control
Point (HACCP) method of seafood processing and safety. Because HACCP will require processors
to document and implement internal controls over processing steps, there will be less testing of
samples. Also the NMFS inspection service is converting to a quasi-commercial organization that
will not be required to use NSIL for analytical testing. During our field work, we identified several
commercial labs that are capable of performing similar analytical tests of seafood for the inspection
service and seafood processors.

During 1996, NSIL reviewed 20 HACCP plans for processors. However, the need for NSIL to
continue this HACCP plan review service is expected to decrease in the future as the inspection
service acquires expertise in HACCP plan implementation. There are numerous commercial,
educational, and other organizations that are capable of providing HACCP expertise and training.

Other work being conducted by NSIL includes product or process risk evaluation, new analytical
method evaluation, and fish meal inspection. These remaining functions are not sufficient to justify
keeping the lab open. Any projects in process that are deemed critical could be continued at the
Northwest Center’s Montlake lab or the Southeast Center’s Charleston lab, both of which have
seafood science programs and the requisite science staff and infrastructure to carry out such
research.

OMB Circular A-76 specifies that government shall not engage in commercial activities if “...the
product or service can be procured more economically from a commercial source.” The circular also
lists examples of commercial activities, one of which is laboratory testing services. Government
performance of commercial activities is allowed only if no satisfactory commercial source is available
because of the source’s lack of capability or because usage of the source would create unacceptable



                                                  9
delay/disruption of an essential project. This is clearly not the case with NSIL, as it is not an
essential project within NOAA and several commercial sources of its products are available at
reasonable costs.

NSIL is currently occupying space at NMFS’s Pascagoula facility and in nearby leased space.
Closing NSIL will involve terminating the positions associated with the lab and eliminating its
functions. This will also open up space at the Pascagoula lab for other consolidation efforts. We
estimate that closing NSIL will yield approximately $2,565,000 in benefits over a five year period.
Our analysis is detailed in Appendix C.

Bay St. Louis Laboratory Programs Should Be Moved

The Bay St. Louis laboratory should be moved from its current location at the Stennis Space Center
in Bay St. Louis, to space at the Pascagoula facility previously occupied by NSIL. According to our
analysis, the programs at Stennis can be cost-effectively moved once NSIL closes. Given the current
fiscal environment, NMFS should strive toward a more cost-effective, streamlined field structure.
Failure to do so would represents an inefficient use of agency resources.

NMFS is currently leasing space at the Stennis Space Center generally to conduct research in
support of the survey work at Pascagoula. The Bay St. Louis lab is conducting relatively high
priority work. Our closure/consolidation criteria, detailed in Appendix G, stipulate that high priority
research should be continued. However, because the Bay St. Louis programs are not site-specific,
they could be moved if an adequate host facility exists.

Once NSIL is closed, the Pascagoula facility will have sufficient space to absorb the Bay St. Louis
programs. Our cost-benefit analysis revealed that the move is cost-beneficial, as about $257,000 in
benefits would be realized over a five-year period. Our analysis is detailed in Appendix C.

Panama City Laboratory Programs Should Be Moved

The Panama City laboratory should be closed and its programs moved to space at the Pascagoula
facility previously occupied by NSIL. According to our analysis, the program at Panama City can be
cost-effectively moved once NSIL closes.

Combining the Pascagoula and Panama City labs could benefit NMFS research for a number of
reasons. Only 10 FTEs are stationed at Panama City. Consolidating the Panama City staff with the
Pascagoula staff will increase the amount of research effort available to address research questions in
the Gulf of Mexico. The consolidation of personnel will build on the established collaborative nature
of the ongoing research programs. Also, relocating the Panama City personnel will provide them
closer access to a number of similar research organizations such as the University of Southern
Mississippi. The work being conducted at Panama City is high priority, so it should not be
discontinued. However, Panama City’s research is not site-specific; therefore, it could be moved if
an adequate host facility exists.




                                                   10
Once NSIL is closed, the Pascagoula facility will have sufficient space to absorb the Panama City
programs. Our cost benefit analysis shows that approximately $1,609,000 in benefits could be
realized over a five-year period from implementing this recommendation. Our analysis is detailed in
Appendix C.

Oxford Laboratory Should Be Transferred

The Oxford facility and most of its programmatic research should be transferred to the State of
Maryland. Any remaining NMFS responsibilities should be transferred to NMFS’s Beaufort lab.

The Oxford lab is currently colocated with Maryland’s Department of Natural Resources research
staff. The State of Maryland has expressed an interest in acquiring this facility, and in the past,
NMFS has conceded that the bulk of their current research could and should be transferred to the
state. Recently, NOAA has decided to increase program responsibilities at Oxford to include Habitat
research, but work in this area is not yet underway. The lab is also now participating in the Marine
Mammal and Sea Turtle Stranding Network, which requires minimal effort. Nonetheless, the work
conducted by NMFS at Oxford is low priority and should be conducted by other agencies.

Therefore, we recommend that NMFS initiate action to transfer the bulk of its programmatic
responsibilities to the state of Maryland. Programs that are not transferred could be phased out,
outsourced, or continued at the Beaufort lab. We estimate that, if all programs are eventually
discontinued and personnel are transferred to existing space at Beaufort, NMFS will realize net
benefits of approximately $2,379,000 over a five-year period. Our analysis is detailed in Appendix
C.

Recommendations

We recommend that:

!      The National Seafood Inspection Laboratory in Pascagoula be closed, its programs
       terminated, and the associated personnel released from service.

!      The Bay St. Louis laboratory be closed and the programs and personnel be moved from its
       current location at the Stennis Space Center to space at the Pascagoula facility previously
       occupied by NSIL.

!      The Panama City laboratory be closed and the programs and personnel be moved from its
       current location to space at the Pascagoula facility previously occupied by NSIL.

!      The Oxford laboratory and most of its programmatic responsibilities be transferred to the
       State of Maryland. Any remaining NMFS responsibilities should be transferred to the
       Beaufort lab.




                                                 11
Funds to Be Put to Better Use

By implementing our recommendations, NMFS could put approximately $3.4 million of funds to
better use. The $3.4 million represents the net present value of benefits over costs for the two years
following implementation of our recommendations. The five-year cost/benefit analysis shows
benefits totaling $6.8 million (summarized below) and can be found in Appendix C.



   Recommendations:                                                   Net present      Net present
                                                                      value of         value of
                                                                      benefits over    benefits over
                                                                      two years        five years
   Close the National Seafood Inspection Laboratory.                      $ 884,000        $2,565,000
   Close the Bay St. Louis lab and move programs to the
   Pascagoula lab.                                                       (149,000)            257,000
   Close the Panama City lab and move programs to the
   Pascagoula lab.                                                        1,092,000         1,609,000
   Transfer the Oxford lab                                                1,601,000         2,379,000
      Total                                                             $3,428,000         $6,810,000


Agency Response

       National Seafood Inspection Laboratory

NOAA disagrees with our recommendation to close the NSIL. NOAA does agree that activities
conducted by NSIL should be discontinued. NOAA claims that since our audit, NMFS has moved
to change NSIL’s program focus from seafood inspection program support and oversight. NOAA
believes that NSIL should continue to represent NOAA in food safety forums and support NMFS’s
continued role relating to food safety.

OIG Comments

       National Seafood Inspection Laboratory

Given that the NMFS seafood inspection program is moving to become a performance based
organization under the Food and Drug Administration within the Department of Health and Human
Services, there simply is no longer a viable reason for NMFS to continue operating NSIL. NOAA’s
assertion that NSIL needs to continue to exist to represent NMFS in food safety forums or to
somehow support NMFS’s fishery management mission is insufficient justification for keeping a
facility open that no longer has a viable mission.




                                                  12
Agency Response

       Bay St. Louis Lab

NOAA also disagrees with our recommendation that the programs at the Bay St. Louis laboratory
should be moved to the Pascagoula facility previously occupied by NSIL. NOAA asserts that there
is great value in having the eight NMFS FTEs at the Bay St. Louis facility (located at NASA’s
Stennis Space Center) to facilitate the exchange and transfer of technology to other resident
agencies.

OIG Comments

       Bay St. Louis Lab

NOAA’s Laboratory Consolidation Study of June 1996 recommended that NMFS withdraw from
the federal agency complex at the Stennis Space Center. The study noted that NMFS is a small
tenant at the Stennis Center, and that the Bay St. Louis programs could be relocated to Galveston
and Pascagoula. NOAA’s Consolidation Study Update of June 1997 reconfirmed that NMFS should
cease participation in the multi-agency complex at Stennis and relocate the personnel and programs
to Pascagoula.

Agency Response

       Panama City Lab

NOAA agreed that the programs currently conducted at the Panama City lab could be relocated, that
income could be generated from the sale of the property, and that savings would be realized.
However, NOAA disagreed with our estimate of the potential savings because NOAA thought our
analysis had not considered the need to backfill vacated positions resulting from the transfer. NOAA
also disagreed with relocating Panama City programs to Pascagoula and suggested instead that the
programs be moved to the Galveston lab.

OIG Comments

       Panama City Lab

NOAA apparently misread our net present value cost/benefit analysis. Our analysis of the Panama
City lab, and all other facilities conducting high priority research, included the assumption that any
position vacancies resulting from the transfer would be backfilled at the new site. As to moving
Panama City programs to Galveston rather than Pascagoula, we recommended that the programs
move to Pascagoula because various projects at Panama City are already coordinated with
researchers at Pascagoula. Consolidating the two groups at a single site seems to be the most
logical, effective, and cost efficient approach.




                                                   13
Agency Response

       Oxford Lab

NOAA suggested that our draft report text was unclear as to the content of our recommendations.
NOAA interpreted our recommendations to be that the Oxford facility be closed, a position with
which NOAA disagreed.

OIG Comments

       Oxford Lab

In response to NOAA’s comments, we revised the text of our final report to more clearly indicate
our recommendations regarding the Oxford lab.




                                                14
ALASKA FISHERIES SCIENCE CENTER

The Alaska Center is responsible for NMFS research in
the marine waters and rivers of Alaska and part of the
west coast of the United States. Alaska Center scientists
estimate the size and value of the commercial fishery
resources and advise fishery managers of changes in
stock abundance.
Specialists at the Center compile and analyze broad
databases on fishery, oceanography, marine mammal,
and environmental research to provide a sound technical
basis for developing policies and strategies for fisheries
management within the EEZ. The four research facilities
associated with the Alaska Center are located in Seattle
(Sand Point); and in Auke Bay, Little Port Walter, and
Kodiak, Alaska. NOAA is also designing a new facility
to be built in Auke Cape, Alaska.

The Sand Point facility houses three Alaska Center divisions: (1) the Resource Assessment and
Conservation Engineering (RACE) division, (2) the Resource Ecology and Fisheries Management
(REFM) division, and (3) the National Marine Mammal Laboratory (NMML). The Center
directorate is colocated at Sand Point, and the facility is also shared with NOAA’s Western Regional
Center and other NOAA entities. Sand Point is NOAA-owned and in good condition.

The RACE division conducts resource assessment surveys to gather information on the abundance of
harvestable fish and crab stocks within the EEC off the coast of the Western Continental United
States and Alaska. The REFM division studies the life history, trophic interactions, population
dynamics, and harvest of the region’s marine resources. The NMML is the principal federal lab
responsible for conducting research on marine mammals and their interaction with fisheries. NMML
staff carry out ecosystem programs in the Arctic and Antarctic, as well as the Bering Sea.

The Auke Bay laboratory, constructed in 1959, includes a subport facility in Juneau for warehouse,
storage, and docking purposes. Auke Bay staff conduct research to support international treaty
negotiations concerning interceptions of U.S. salmon. They also examine ways to enhance
depressed salmon stocks, provide information on the status of groundfish fisheries in the eastern Gulf
of Alaska, and investigate the impact of industrial development on fish and shellfish production in
Alaska. The current lab complex is overcrowded and in marginal condition.

Associated with the Auke Bay lab is the Little Port Walter field station. The first temporary field
facility at Little Port Walter was established in 1932 for salmon research. Research at Little Port




                                                  15
Walter currently focuses on Chinook Salmon, Steelhead, and oiled Pink Salmon. Efforts are also
being made to count the number and size of the fish returning to Sashin Creek as part of the Ocean
Carrying Capacity research program. The Alaska Department of Fish and Game and the University
of Alaska are included in cooperative research efforts.

Two facilities make up what is known as the Kodiak laboratory: one in Gibson Cove and one at a
nearby U.S. Coast Guard station. The Gibson Cove facility is used primarily by the NMFS Observer
program and is in acceptable condition. However, the NMFS-occupied space at the Coast Guard
facility is in poor condition and is unsatisfactory for NMFS’s research needs. Ground breaking
ceremonies were recently held for a new facility on Near Island to replace the dilapidated Coast
Guard station facility. This new facility is being funded by the Kodiak Borough. RACE, REFM, and
NMML all have programs that use the Kodiak facilities.

Along with the new construction in Kodiak, NMFS is planning to construct a new facility in Auke
Cape to replace the deteriorating Auke Bay lab. The new facility will also house local NMFS
Regional Office, Enforcement, and General Counsel staff. The University of Alaska plans to
construct its own building adjacent to the NMFS facility. Current project cost estimates for the new
facility total about $71 million, and project completion is expected around the year 2000.

We visited the Sand Point, Auke Bay, and Little Port Walter facilities during our audit. We spoke
with appropriate lab personnel, collaborators, and customers. Our detailed analysis of all the Alaska
Center facilities and of the programs being conducted at these facilities confirmed that the current
Center structure is adequate for NMFS’s needs. We recommend no changes at this time.

During our analysis, however, we reviewed the status of the Auke Cape project in detail. In 1994,
we conducted an audit of NOAA’s proposal to construct a new facility at Auke Cape (STL-5507-4-
0001). At that time, we found that NOAA’s space and cost estimates for the new facility were
flawed. Upon reviewing the current Auke Cape space and cost estimates, we found that space
assessments were still inflated and that cost estimates had nearly doubled.

We also addressed the possibility of relocating Alaska Science Center personnel at Sand Point to the
proposed Auke Cape facility. Our review of programs and facilities found no logistical advantage to
moving Sand Point programs to Auke Cape. Our space analysis showed that there is not sufficient
planned space at Auke Cape to accommodate Sand Point programs. Finally, our cost/benefit
analysis concluded that the costs associated with moving Sand Point personnel to Auke Cape are in
excess of $20 million. Therefore, we are making no further recommendations at this time. Our
conclusions are documented in Appendix D.




                                                 16
NORTHWEST FISHERIES SCIENCE CENTER

The Northwest Center was originally established as the Alaska and
Northwest Regional Center in 1938 by NOAA’s predecessor, the
Bureau of Commercial Fisheries. In 1990, this entity was split into
the Northwest and Alaska Centers. The current Northwest Center
consists of six main research facilities: Montlake, Manchester,
Mukilteo, and Pasco, Washington; and Pt. Adams and Newport,
Oregon. The Center is responsible for providing scientific and
technical support for the management, conservation, and
development of the anadromous and marine fishery resources of the
Pacific Northwest. Research conducted by the staff falls into three
categories: health and conservation of salmon stocks, habitat
assessment and restoration, and seafood safety and quality.

The Montlake laboratory was built in 1931 and houses three
divisions: Coastal Zone and Estuarine Studies, Environmental
Conservation, and Utilization Research. Montlake is also headquarters for the Northwest Center
directorate. All work done throughout the Center is managed by division directors at Montlake,
regardless of where the research is conducted. The Montlake facility’s proximity to the University of
Washington allows valuable interchange between scientists as well as easy access to the university’s
library and research facilities.

Manchester was established in 1968 on the site of a former Navy firefighting school. The activities
at Manchester are part of the Coastal Zone and Estuarine Studies division but with much of the work
funded by other agencies, especially the Bonneville Power Administration. The facility is in good
condition. Major areas of research include salmon physiology, health, and stock restoration.
Construction was recently completed on a new saltwater lab and seawater pumping system, and
Bonneville has funded a new building to maintain the lab’s chinook captive brood stock. A new
facility containing two large flumes to conduct behavioral studies was also just completed.

The Mukilteo laboratory was established in 1970 to conduct work for the Environmental
Conservation division. The facility is leased from the U.S. Air Force rent free and provides running
seawater facilities for the staff at Montlake. The facility is in fair condition.

The Pasco facility, located at the confluence of the Snake and Columbia Rivers, addresses
environmental changes in the Columbia River system caused by the construction of dams and other
water resource developments. The current facility was established in 1965. The Pasco facility is in
excellent condition and is specifically designed to support current research activities.

The Newport laboratory was established in 1979 as part of the Hatfield Marine Science Center to
promote the development, rehabilitation, and enhancement of Oregon coastal fish and mollusks.
Oregon State University researchers are colocated with NMFS staff under a cooperative




                                                 17
agreement. A large portion of the facility is devoted to Alaska Science Center research on fish
behavior as it relates to by-catch. Also conducted at Newport are groundfish research and salmon
disease research. The Newport facility is in excellent condition, but approximately $3.5 million has
been appropriated to NMFS to remodel existing space and construct additional space for both
NOAA and Oregon State University.

The Pt. Adams field station was established in 1969. Research at the station is focused on
developing environmental information to support the conservation and enhancement of fishery
resources and their habitats in the lower Columbia River, its estuary, and the near shore ocean off
Oregon and Washington. The buildings are in good condition, and the space is currently
underutilized. Nearly all studies in the lower Columbia River are cooperative efforts with the Corps
of Engineers or the Bonneville Power Administration.

We visited Montlake, Manchester, Newport, and Pt. Adams, conducting interviews with appropriate
lab personnel, collaborators, and customers. Our detailed analysis of all the Northwest Center
facilities and of the programs being conducted there confirmed that the current Center structure is
adequate for NMFS’s needs. We recommend no changes at this time.

We did, however, consider moving the Montlake programs to the Alaska Science Center’s Sand
Point facility. This would have been in conjunction with the potential recommendation (detailed
previously in the “Alaska Fisheries Science Center” section) to relocate that Center’s personnel at
Sand Point to the proposed Auke Cape facility upon completion.

We found that the Sand Point facility does not have the specialized lab space and fresh water systems
required by the Montlake programs. Renovating the Sand Point facility to accommodate these
programs would be costly and inefficient given that the required space and systems already exist at
Montlake. In addition, as outlined above, because we do not recommend moving any Alaska Center
programs out of Sand Point, it would not have adequate space to absorb the Montlake programs.
No other facilities in the general area could accommodate the large number of personnel associated
with the Montlake programs. As a result, we do not recommend moving the Montlake programs.
Our conclusions are documented in Appendix E.

Agency Response

NOAA disagreed with our recommendations that no changes be made in the current organizational
structure of the Alaska and Northwest Centers. NOAA noted that the anticipated
disposition of programs currently at the Alaska Center was addressed in the June 1997 update of the
NOAA Laboratory Consolidation Report. NOAA asserts there are benefits to the actions proposed
which outweigh the high costs. NOAA also asserts that there is merit in relocating programs and
personnel from Montlake to Sand Point if much of the Alaska center is relocated to Auke Bay.




                                                  18
OIG Comments

We carefully considered NOAA's response on this section of our report because the options being
considered would have major programmatic and budgetary impact. We noted that the June 1997
Laboratory Consolidation Study update referenced in the NOAA response proposes relocating all
current programs except the Marine Mammal Program, from the Sand Point facility, yet any benefits
accruing to these proposed relocations were not obvious in either the June 1997 update or the
NOAA response.

As noted, our analysis found that there are no logistical advantages in moving Sand Point programs
to Auke Cape, that there is insufficient planned space at Auke Cape to accommodate the programs,
and that costs associated with the proposed move are high. The proposal currently being offered by
NOAA would only worsen the situation by adding to already prohibitive moving costs and by
requiring a redesign and additional space at the proposed Auke Cape facility.

Similarly, we continue to have doubts regarding the proposed move of Montlake programs to Sand
Point. The Sand Point facility lacks the specialized lab space and water systems required by the
Montlake programs. Renovating Sand Point to duplicate these systems which already exist a few
miles away is wasteful. NOAA recognized this problem in its Laboratory Consolidation Report by
noting that a property transfer of the Montlake facility would have to include a provision permitting
continued access to the critical laboratories at Montlake.

In summary, we reconfirm our initial conclusions, that the current organizational structures of the
Alaska and Northwest centers are appropriate.




                                                  19
SOUTHWEST FISHERIES SCIENCE CENTER

The Southwest Center is comprised of four major facilities
located in La Jolla, Pacific Grove, and Tiburon, California;
and Honolulu, Hawaii. The Southwest Center’s mission
is to describe feasible management options for Pacific
coastal, insular, and pelagic fisheries for worldwide tuna
fisheries, along with the protected species associated with
these fisheries. The Center also provides estimates of the
biological, environmental, economic, and social impacts of
these options. The Center directorate is colocated with
the La Jolla laboratory.

The La Jolla laboratory was built in 1964 to conduct
research on the California Current and tuna resources.
The lab is currently working on protected species, Antarctic ecosystems, west coast groundfish,
genetics, coastal fisheries, and large pelagics. The facility is located on 2.48 acres 220 feet above sea
level on a sandstone cliff. Approximately 100 NMFS FTEs are located at La Jolla, and 35 people
from the Inter-American Tropical Tuna Commission are tenants at the facility. Research is
conducted using the R/V David Starr Jordan, berthed in San Diego.

The Pacific Fisheries Environmental Group was recently relocated to a deactivated U.S. Naval
Reserve Center in Pacific Grove. The facility was officially transferred to NOAA in 1996. A small
amount of space in the facility is occupied by the NMFS’s enforcement program and the Monterey
Bay National Marine Sanctuary. However, most lab interaction is with the Fleet Numerical
Meteorology and Oceanography Center, located in nearby Monterey. The Pacific Fisheries
Environmental Group relies heavily on environmental data collected by Fleet Numerical Meteorology
and Oceanography Center to study how the environment influences marine resources.

The Tiburon laboratory was established in 1961 to conduct research on recreational fisheries and San
Francisco Bay concerns. The lab now focuses its work in the groundfish community and fishery off
coastal California. Because of the poor condition of the lab facilities, NMFS currently plans to move
the programs and personnel to a facility to be constructed in Santa Cruz, California.

Researchers at the Honolulu laboratory study high seas, open ocean, and tropical island fisheries
resources from the northwestern Hawaiian Islands to the Mariana Archipelago. The main lab adjoins
the campus of the University of Hawaii, and the Kewalo Research Facility is situated on the
Honolulu waterfront. The lab is overcrowded and is in poor condition. However, a study is
underway to analyze various options to reconcile this situation, and NMFS managers expect that
action will be taken soon.




                                                   20
NMFS is defining space needs for the new facility to be constructed in Santa Cruz, to which it plans
to move the Tiburon research programs. NMFS regional staff currently leasing space in Santa Rosa,
California, are also planning to occupy space at Santa Cruz.

We visited the La Jolla and Pacific Grove facilities and spoke with lab directors, program managers,
and other parties. We conducted a phone interview with the Tiburon director, and the Southwest
Center director spoke to us regarding the Honolulu lab’s programs and facility plans. After
considering the options available in the Southwest, we determined that for safety reasons, the La
Jolla and Tiburon facilities should be closed and their programs transferred to other NMFS facilities.

La Jolla Facility Should Be Vacated

The Southwest Center’s La Jolla facility presents potentially serious risk to the laboratory staff and
the public. The facility was built on a landslide, and evidence indicates that the Rose Canyon fault
may run directly beneath the lab. Furthermore, the facility is located on a sandstone cliff, which is
eroding in an unpredictable, sporadic way. For the safety of the lab’s researchers and the public, we
recommend that the La Jolla facility be vacated and staff be moved to other NMFS facilities.

We interviewed a number of geologic experts from the Scripps Institute of Oceanography, the City
of San Diego, and the private sector. We reviewed a number of reports and studies of the geologic
features underlying the NMFS buildings. Four significant points can be drawn from our work:

!      Wave action and storms continue to erode the cliff, and the buildings now have inadequate
       setback from the cliff edge.

!      The lab was built on an existing landslide, and an earthquake could trigger cliff failure.

!      The Rose Canyon fault may run directly underneath the lab.

!      The beach beneath the lab is a popular area for the public to visit, and posting of signs to
       warn the public of the serious danger have not been successful in limiting use of the beach.

Although the science programs are high priority and NMFS benefits from collocation with the
Scripps Institute, the facility itself presents potentially serious risk to the lab staff and the public.
Given this situation, and considering that none of the programs at La Jolla are site-specific, we
recommend that the La Jolla facility be vacated and that staff and programs be moved to other
NMFS facilities. Two of the six La Jolla programs (Coastal Fisheries and West Coast Groundfish)
should be moved into space at the Northwest Center’s Newport, Oregon, facility; while the Genetics
and Protected Species programs, along with the Center directorate, should be transferred to the
planned Santa Cruz facility upon its completion. The remaining two La Jolla programs (Large




                                                   21
Pelagics and Antarctic Research) should be transferred to the Honolulu lab and the Alaska Center at
Sand Point, respectively.

Coastal Fisheries and West Coast Groundfish should be transferred to the lab complex in Newport.
Several entities occupy space at this complex, including the Environmental Protection Agency
(EPA), Oregon State University, and NMFS. NOAA currently plans to remodel existing space and
construct additional space for both the University and NOAA. NOAA’s prefinal space assessment
indicated that planned renovations included significant space allotments for currently unauthorized
program expansions. Furthermore, one of the buildings currently occupied by EPA has vacant
space, which EPA has expressed interest in sharing with NMFS. Given this, we recommend that
planned renovations and construction currently designated for unauthorized program expansions
instead be designated to accommodate La Jolla’s Coastal Fisheries and West Coast Groundfish
programs.

The Antarctic program should be transferred to the Alaska Center and programmatically combined
with that Center’s Polar program. The Antarctic program is not site-specific, and the Polar program
conducts complementary work. There is also space
available at Sand Point to absorb the personnel and
equipment associated with the Antarctic program. It is
more cost effective to move the Antarctic program to
Sand Point than to construct extra space to
accommodate the program at Santa Cruz.

The Large Pelagics program should be moved to the
Honolulu lab. Honolulu has a similar program, and
researchers in the two programs already have significant
interactions. Furthermore, NMFS is preparing to
renovate existing space at Honolulu and transfer
approximately 14 regional office personnel from Long
Beach to the renovated Honolulu lab. We recommend
that this transfer not take place and that, instead,
personnel and equipment associated with La Jolla’s
Large Pelagics program move into renovated space in
Honolulu.

Genetics, Protected Species, and the Center directorate should be transferred to the planned Santa
Cruz facility upon its completion. NMFS currently plans to move programs and staff from Tiburon
and Santa Rosa into this planned facility. Our review led us to agree with NMFS’s decision to move
the Tiburon lab to Santa Cruz. However, to increase the amount of office space available for the
incoming La Jolla programs, we believe the Santa Rosa staff should remain in their current leased
space. The Genetics and Protected Species programs still require a small amount of lab space;
therefore, we recommend that the planned Santa Cruz facility be expanded to accommodate all
Tiburon programs, the two La Jolla programs, and the Center directorate.




                                                 22
We estimated that to provide for the space needs of the La Jolla programs to be moved to Santa
Cruz, approximately 33,895 gross square feet of additional space needs to be constructed at Santa
Cruz, which would cost approximately $17,324,000. The net present value over a five-year period
of costs associated with expanding construction efforts at Santa Cruz and transferring La Jolla
personnel and equipment to Santa Cruz, Sand Point, Newport, and Honolulu equals approximately
$19,956,000. These costs are in addition to original NMFS Santa Cruz cost estimates.

Although this represents a large initial outlay for NMFS, the safety of the researchers who now work
in unstable and possibly life threatening conditions is an overriding factor. Furthermore, it is more
cost-beneficial for NMFS to relocate La Jolla staff now under this plan than to postpone action.
NMFS currently plans to maintain the status quo with regards to the La Jolla facility. However,
several geologic experts have maintained that it is only a matter of time before the cliff fails. If
NMFS fails to adequately plan ahead now, emergency conditions will likely force it into making
costly, inadequately planned facility decisions later.

Assume, for example, that NMFS does maintain the status quo at La Jolla. Also assume that within
five years, the La Jolla coastline degrades to a point where the facility becomes unoccupiable. The
cost of building a replacement facility in San Diego for the entire La Jolla staff would be
approximately $33,486,000. This figure does not include costs that might be associated with leasing
temporary space and temporarily moving equipment should NMFS be forced to evacuate the La
Jolla facility before a replacement facility is built. Our recommendation will cost approximately
$19,956,000. By planning ahead to occupy the Santa Cruz facility, NMFS can potentially save
approximately $13,530,000. Our assumptions and analyses are detailed in Appendix F, and a
geologic perspective of the La Jolla site is included as Appendix H.

Recommendations

We recommend that the La Jolla facility be vacated and the programs and personnel be moved to the
new lab planned for Santa Cruz, California, and existing labs in Honolulu, Newport, and Seattle
(Sand Point).

We also recommend that NMFS include the recommended transfer of programs and personnel in the
design process for the new Santa Cruz lab, and in the design process for major renovations for the
Honolulu and Newport labs.




                                                 23
Funds to Be Put to Better Use

While implementation of this recommendation has a high potential of avoiding future costs for a
replacement building, NOAA has no immediate plans to replace the existing building. Therefore, we
have not included an amount for funds to be put to better use. However, as detailed in Appendix F,
by planning ahead for alternative facilities before a crisis arises for replacing the La Jolla building,
NOAA could avoid approximately $13.5 million in additional construction costs.

Agency Response

       LaJolla

NOAA agreed with our recommendations to vacate the LaJolla facility and relocate the programs
and staff to other NMFS facilities with two exceptions: (1) relocating the Antarctic program to
Sand Point, and (2) leaving the Santa Rosa staff in their current leased space.

NOAA notes the Antarctic activity can be outsourced, and suggests that doing so might provide
sufficient space at Santa Cruz to accommodate relocated staff from Santa Rosa.

       Tiburon

NOAA agreed with our recommendation to close the Tiburon facility and relocate the programs to
the new facility at Santa Cruz.

OIG Comments

We agree that outsourcing the Antarctic activities is feasible and might be more cost effective than
relocating the Antarctic personnel to Sand Point. This would not, however, provide additional space
at Santa Cruz to accommodate the Santa Rosa staff, as it was not anticipated that Antarctic staff
would relocate to Santa Cruz. Our analysis indicated it would be more cost effective to move
Antarctic staff to Sand Point than to construct additional space for the program at Santa Cruz.

NOAA should carefully evaluate the benefits of moving the Santa Rosa staff to the new Santa Cruz
facility, and if such a proposal is adopted, should consider the necessary space requirements in the
Santa Cruz design.




                                                   24
                                                                                 Appendix A
                                                                                 Page 1 of 1

                          LIST OF NMFS RESEARCH FACILITIES


Northeast Fisheries Science Center:           Alaska Fisheries Science Center:
Woods Hole, MA                                Seattle, WA (Sand Point)
Narragansett, RI                              Auke Bay, AK
Milford, CT                                   Little Port Walter, AK
Sandy Hook, NJ (James J. Howard Lab)          Kodiak, AK
National Systematics Lab in Washington D.C.
                                              Northwest Fisheries Science Center:
Southeast Fisheries Science Center:           Seattle, WA (Montlake)
Galveston, TX                                 Manchester, WA
Bay St. Louis, MS                             Mukilteo, WA
Pascagoula, MS                                Pasco, WA
Panama City, FL                               Pt. Adams, OR
Miami, FL                                     Newport, OR
Charleston, SC
Beaufort, NC                                  Southwest Fisheries Science Center:
Oxford, MD                                    Honolulu, HI
                                              La Jolla, CA
National Seafood                              Pacific Grove, CA
 Inspection Lab:                              Tiburon, CA
Pascagoula, MS
                                                                                          Appendix B
                                                                                          Page 1 of 5

                   NORTHEAST FISHERIES SCIENCE CENTER ANALYSIS

We toured each of the Northeast Center facilities except the National Systematics Lab, spoke with
people in each major program area, and interviewed collaborators and customers as appropriate.
After considering the options available in the Northeast, we determined that a more efficient use of
NMFS resources would be achieved by closing the Milford lab and relocating its programs to the
James J. Howard lab. Programs would remain there at a scaled back level more appropriate to their
relative priority. Our rationales for recommending closing certain labs and having others stay open
are presented below:

We did not recommend closing the Woods Hole lab because it is conducting all high priority
programs. We did not consider moving it because it has a staff (181 FTEs in FY 1994) large enough
to make moving the facility prohibitive. Furthermore, it has established collaborative efforts with
other entities that would have been jeopardized by a move.

We did not recommend closing the Narragansett lab because it too is conducting all high priority
programs. We did not consider moving it because it has important cooperative relationships with the
University of Rhode Island and the local EPA lab that we believe would be jeopardized by a move.
Its research is also highly dependent on the unique quality of its seawater system.

We did not recommend closing the National Systematics Lab because it is conducting only high
priority research. Although the research is not necessarily site specific, we did not consider moving
it for two reasons: (1) its proximity to the colocated Smithsonian Natural History Museum’s
collections and library is helpful, and (2) lab space is provided at no cost to NMFS.

The Milford lab is a strong candidate for closure. NOAA managers identified the Milford programs
as low priority, and none of the species being researched are covered under a federal fishery
management plan. Furthermore, the condition of the buildings is only fair, and the facility is running
under capacity. Finally, the lab’s research is isolated from the mainstream of the Center’s and
NMFS’s activities.

Although two out of the three programs at the James J. Howard lab are lower priority, we did not
consider closing it or moving it because the state-of-the-art facility is an asset to NMFS.
Furthermore, our analysis and visits have identified James J. Howard as a suitable host facility for
Milford’s programs and personnel. The lab contains a sophisticated seawater system with a modern
suite of wet, dry, and analytical labs and is running under capacity. NMFS occupies roughly 75
percent of the lab through a lease agreement with the state of New Jersey. NMFS may occupy more
of the facility at any time with only a small increase in operating costs. Our analysis of the space
utilization and availability at both labs has shown that the James J. Howard lab has the adequate type
and amount of space to absorb the Milford lab’s programs and personnel at a scaled back level. The
lab is already configured to support some of the research being conducted by Milford, especially with
tautogs and algae.
                                                                                             Appendix B
                                                                                             Page 2 of 5

We also conducted a cost/benefit analysis of closing Milford and moving its programs at a scaled-
back level to James J. Howard. This analysis showed that benefits of approximately $3,985,000
could be realized over a five year period by closing the Milford facility. We conducted our
cost/benefit analysis in accordance with OMB Circular A-94, Guidelines and Discount Rates for
Benefit-Cost Analysis of Federal Programs. The first step in developing a cost/benefit analysis is to
identify the benefits or savings and then subtract the associated costs during the relevant time
periods. The next step is to discount the net benefits over the duration of the analysis, which in this
case is five years. The five year number is an arbitrary choice used to illustrate the savings that
would occur over such a period.

SECTION I: OVERALL ASSUMPTIONS

We made several assumptions in conducting our analysis. Most assumptions we utilized are similar
to those used in prior NMFS consolidation studies. Some assumptions have been modified, such as
the amount of PCS cost and severance pay for affected personnel, to better reflect changed
conditions.
        A)      Administrative Personnel
                1)      All those eligible for full or early retirement will take it.
                2)      All others will be RIFed and receive severance pay.
                3)      Only twenty-five percent of Milford’s total administrative personnel will be
                        re-hired at James J. Howard.
        B)      Programmatic Personnel
                1)      All those eligible for full retirement will take it.
                2)      Fifty percent of those eligible for early retirement will take it; the other fifty
                        percent will transfer.
                3)      Seventy-five percent of those not eligible for full or early retirement will
                        transfer; the other twenty-five percent will choose not to transfer and will
                        receive severance pay. These positions will not be refilled.
                4)      None of those who take full or early retirement will be re-hired because
                        Milford conducts only low priority research that should at least be scaled
                        back.
                5)      The savings from not replacing those who retire will be calculated by
                        multiplying the average salaries of those eligible for retirement by the number
                        of people eligible for retirement.
        C)      Average Unemployment Compensation = $11,000 per person. We consider this to be
                a high estimate that could apply in any regional analysis.
        D)      Average Permanent Change of Station (PCS) Costs = $54,180 per person. We
                consider this to be a high estimate that could apply in any regional analysis.
        E)      “Opportunity costs” represent disruption and move support costs and equal ten
                percent of the total programmatic value prior to the move.
        F)      Moving Costs are based on the following assumptions:
                1)      The value of the equipment and materials to be moved is equal to half of
                        the value of the program.
                                                                                                               Appendix B
                                                                                                               Page 3 of 5

                        2)        The amount of tonnage to be moved is equal to the value of the equipment
                                  divided by $10,000.
                        3)        To calculate the total moving costs, multiply (1) the surface freight charge of
                                  $1.33/ton/mile by (2) the distance between two points and (3) the tonnage of
                                  equipment moved.
                        4)        The in-transit loss of equipment and materials is equal to two percent of the
                                  value of the equipment and materials moved.

SECTION II: SAVINGS ANALYSIS

There are five categories of savings from moving the Milford lab to the James J. Howard Lab: (1)
the sale of the property, (2) the savings from RIFing people at the lab, (3) the savings from people
taking early retirements, (4) the savings from people taking full retirements, and (5) the savings for
the Operations and Maintenance (O&M) at Milford.

Savings Summary
The following is a summary table of the annual savings listed above.

                                  Year 0             Year 1                 Year 2       Year 3       Year 4       Year 5

    Property Sale            $2,214,310

    RIF1                                          $159,308                $270,901    $270,901     $270,901     $270,901

    Early Retirement2                               140,659                140,659     140,659      195,992      195,992

    Full Retirement                                 363,261                363,261     363,261      363,261      363,261

    O&M                                             416,982                416,982     416,982      416,982      416,982

           Total Savings     $2,214,310         $1,080,210           $1,191,803      $1,191,803   $1,247,136   $1,247,136
1
 Net of Severance costs in Year 1 2Net of Retirement pay in Years 1 - 3
                                                                                        Appendix B
                                                                                        Page 4 of 5

SECTION III: COSTS

There are six categories of Costs associated with moving the Milford lab to the James J. Howard lab:
(1) RIF costs, (2) O&M cost increase at James J. Howard, (3) permanent change of station costs, (4)
opportunity costs, (5) moving costs, and (6) administrative rehire costs.

Cost Summary

The following is a summary table of the annual costs listed above.

                           Year 0       Year 1       Year 2       Year 3       Year 4       Year 5

    RIF1                              $77,000

    O&M Increase                      276,600     $276,600     $276,600     $276,600     $276,600

    PCS                 $812,700

    Opportunity                       231,350

    Moving                40,877

    Adm Rehire                         57,448       57,448       57,448       57,448       57,448

               Total    $853,577     $642,398     $334,048     $334,048     $334,048     $334,048
1
 Unemployment costs


SECTION IV: NET PRESENT VALUE ANALYSIS

Net Value
The net value equals the total row from the savings summary minus the total row from the cost
summary.

                           Year 0       Year 1       Year 2       Year 3       Year 4       Year 5

    Savings Total      $2,214,310   $1,080,210   $1,191,803   $1,191,803   $1,247,136   $1,247,136

    Costs Total          853,577      642,398      334,048      334,048      334,048      334,048

           Net Value   $1,360,733    $437,812     $857,755     $857,755     $913,088     $913,088
                                                                                           Appendix B
                                                                                           Page 5 of 5

Net Present Value

Net present value takes the net value and puts it in current dollar value terms using the formula
NPV=1/(1+i)t ,where i is the discount rate and t is the year. The discount rate used in this analysis
equals the real interest rate on a five year treasury note, which equals 2.7 percent.

  Discount Rate     Year          Year          Year            Year         Year          Year

       2.7%           0             1            2                  3         4              5

 NPV              $1,360,733    $426,302      $813,247        $791,866     $820,788      $799,209

 Total NPV                                             $5,012,145
                                                                                             Appendix C
                                                                                            Page 1 of 15

                    SOUTHEAST FISHERIES SCIENCE CENTER ANALYSIS

We toured each of the Southeast Center facilities, spoke with people in each major program area,
and interviewed collaborators and customers as appropriate. After considering the options available
in the Southeast, we determined that a more efficient use of NMFS resources would be achieved by
closing the National Seafood Inspection Lab and the Oxford lab, as well as moving programs from
the Bay St. Louis and Panama City facilities to the Pascagoula facility. Our rationales in
recommending closing certain labs and having others stay open are presented below:

We did not recommend closing the Galveston lab because the work being conducted there is high
priority. We decided not to move the research being conducted there for several reasons: (1) the
facility is relatively large (approximately 70 FTEs); it has a staff large enough to make moving costs
prohibitive, and there are no other facilities available with the ability to accommodate the programs
and personnel, (2) it is strategically located to stage its research, (3) it is currently undergoing a
phased renovation that will greatly improve the condition of the facilities, and (4) it has well-
established connections with nearby Texas A&M University.

We did not recommend closing the Pascagoula lab because the research being conducted there is
high priority. We did not recommend moving the lab because no other Southeast Center labs near
the Gulf have docking facilities that could accommodate the large vessels currently stationed at
Pascagoula.

We recommend closing the National Seafood Inspection lab, which is colocated with the Pascagoula
lab. Not only is the research relatively low-priority, but analytical testing of seafood is available from
commercial labs. The lab’s remaining functions are not sufficient to justify keeping it open. Any
projects in process that are deemed critical could be assigned to the Montlake or Charleston labs for
completion. Closing NSIL will involve RIFing the positions associated with the lab and eliminating
all of its functions. We estimate that closing NSIL will yield approximately $2,565,000 in benefits
over a five year period. Our analysis is detailed in the section below entitled “National Seafood
Inspection Laboratory.”

We recommend vacating NMFS-occupied space at the Bay St. Louis facility and moving programs
to space at Pascagoula that would be freed up by closing NSIL. The programs at Bay St. Louis are
high priority, but they are not site-specific; therefore, they could be moved if an adequate host
facility exists. Once NSIL is closed, the Pascagoula facility will have the sufficient amount and type
of space required to absorb the Bay St. Louis programs. Furthermore, research at Bay St. Louis is
generally done to support the survey work at Pascagoula. Our cost benefit analysis revealed that it is
cost-beneficial to move the Bay St. Louis programs to Pascagoula, with approximately $257,000 in
benefits to be realized over a five year period. Our analysis is detailed in the section below entitled
“Bay St. Louis Laboratory.”
                                                                                                Appendix C
                                                                                               Page 2 of 15

We recommend closing the Panama City lab and moving programs to space at Pascagoula that
would be freed up by closing NSIL. Combining the Pascagoula and Panama City labs could

benefit research in two ways. First, only 10 FTEs are stationed at Panama City. Consolidating
Panama City with Pascagoula will allow the research effort to reach a critical mass. Second, various
projects at Panama City are already done in coordination with Pascagoula; therefore, consolidating
the two labs will increase programmatic synergies. The work being conducted at Panama City is
high priority, but it is not site-specific; therefore, it could be moved if an adequate host facility exists.
Once NSIL is closed, the Pascagoula facility will have sufficient space to absorb the Panama City
programs. Our cost benefit analysis shows that approximately $1,609,000 in benefits could be
realized over a five year period from implementing this recommendation. Our analysis is detailed in
the section below entitled “Panama City Laboratory.”

We did not recommend closing the Miami lab because the work being conducted there is high
priority. Although the programs are not site-specific, a fairly large number of personnel are stationed
at the facility, which would make moving costs prohibitive, and there are no other NMFS facilities
available that can accommodate the programs and personnel.

We did not recommend closing or moving the Charleston lab for several reasons. Although the lab is
conducting relatively low priority work, no other agencies appear to wholly duplicate that work.
And although the research is not site-specific, a fairly large number of personnel are stationed at the
facility. The lab’s large staff would make moving costs prohibitive, and there are no other facilities
that can accommodate the programs and personnel.

We did not recommend closing the Beaufort lab because the research being conducted there is high
priority. We did not recommend moving the lab because its location is highly advantageous to its
research. Furthermore, a fairly large number of personnel are stationed at the facility, which would
make moving costs prohibitive, and there are no other NMFS facilities that can accommodate the
programs and personnel.

We recommend closing the Oxford lab because the research being conducted there is low priority
and other agencies can conduct this type of research. The state of Maryland has long expressed
interest in acquiring this facility, and in the past, NMFS has conceded that the bulk of its current
research could and should be transferred to the state. Recently, NOAA has decided to increase
program responsibilities at Oxford to include habitat research, but work in this area is not yet
underway. The lab is also now participating in the Marine Mammal and Sea Turtle Stranding
Network, which requires only a minimal effort. Therefore, we recommend that NMFS transfer the
bulk of its programmatic responsibilities to other agencies as appropriate. Programs that are not
transferred could be phased out, out sourced, or continued at Beaufort. We estimate that, if all
programs are eventually discontinued and personnel are transferred to existing space at Beaufort,
NMFS will realize net benefits of approximately $2,379,000 over a five year period. Our analysis is
detailed in the section below entitled “Oxford Laboratory.”
                                                                                            Appendix C
                                                                                           Page 3 of 15

NATIONAL SEAFOOD INSPECTION LABORATORY

We conducted our cost/benefit analysis in accordance with OMB Circular A-94 (see Appendix B
page 2).

SECTION I: OVERALL ASSUMPTIONS

We made several assumptions in conducting our analysis. Most assumptions we utilized are similar
to those used in prior NMFS consolidation studies. Some assumptions have been modified, such as
the amount of PCS costs and severance pay for affected personnel, to better reflect changed
conditions.
        A)      Administrative Personnel
                1)      All those eligible for full or early retirement will take it.
                2)      All others will be RIFed and receive severance pay.
        B)      Programmatic Personnel
                1)      All those eligible for full retirement will take it.
                2)      All those eligible for early retirement will take it rather than be RIFed when
                        NSIL’s programs are eliminated.
                3)      All those not eligible for full or early retirement will be RIFed because NSIL’s
                        programs will be eliminated.
        C)      Average Unemployment Compensation = $11,000 per person. We consider this to be
                a high estimate that could apply in any regional analysis.

SECTION II: SAVINGS ANALYSIS

There are three categories of savings from closing NSIL: (1) reduction in force, (2) full retirement,
and (3) early retirement.

Savings Summary
The following is a summary table of the annual savings listed in the above analysis.

                        Year 0      Year 1         Year 2        Year 3         Year 4        Year 5

 Reduction in Force               $469,013       $469,013      $469,013      $469,013       $469,013

 Full Retirement                   128,090        128,090       128,090       128,090        128,090

 Early Retirement                   32,710         32,710        32,710        32,710         32,710

        Total Savings      $0     $629,813       $629,813      $629,813      $629,813       $629,813
                                                                                            Appendix C
                                                                                           Page 4 of 15

SECTION III: COSTS

There are three distinct categories of costs associated with closing NSIL: (1) unemployment costs,
(2) severance costs, and (3) early retirement costs.

Cost Summary
The following is a summary table of the annual costs listed above.

                       Year 0        Year 1        Year 2         Year 3          Year 4          Year 5

 Unemployment                      $143,000

 Severance                          155,436

 Early Retirement                    18,766      $18,766         $18,766

               Total          $0   $317,202      $18,766         $18,766              $0              $0


SECTION IV: NET PRESENT VALUE ANALYSIS

Net Value
The net value equals the total row from the savings summary minus the total row from the cost
summary.

                       Year 0        Year 1        Year 2         Year 3          Year 4          Year 5

 Savings Total                $0   $629,813     $629,813       $629,813      $629,813        $629,813

 Costs Total                   0    317,202       18,766          18,766               0               0

       Net Value              $0   $312,611     $611,047       $611,047      $629,813        $629,813


Net Present Value
Net present value takes the net value and an puts it in current dollar value terms using the formula
NPV=1/(1+i)t ,where i is the discount rate and t is the year. The discount rate used in this analysis
equals the real interest rate on a five year treasury note, which equals 2.7 percent.

  Discount Rate        Year            Year        Year        Year          Year           Year

       2.7%             0                1           2           3            4               5

 NPV                   $0            $304,392    $579,340    $564,109      $566,148        $551,264

 Total NPV                                          $2,565,254
                                                                                           Appendix C
                                                                                          Page 5 of 15

BAY ST. LOUIS LABORATORY

We conducted our cost/benefit analysis in accordance with OMB Circular A-94 (see Appendix B
page 2).

SECTION I: OVERALL ASSUMPTIONS

We made several assumptions in conducting our analysis. Most assumption we utilized are similar to
those used in prior NMFS consolidation studies. Some assumptions have been modified, such as the
amount of PCS costs and severance pay for affected personnel, to better reflect changed conditions.

       A)     Administrative Personnel
              1)      All those eligible for full or early retirement will take it.
              2)      All others will be RIFed and receive severance pay.
              3)      Only twenty-five percent of Bay St. Louis’s total administrative personnel will
                      be rehired at Pascagoula.
       B)     Programmatic Personnel
              1)      All those eligible for full retirement will take it.
              2)      Fifty percent of those eligible for early retirement will take it; the other fifty
                      percent will transfer.
              3)      Seventy-five percent of those not eligible for full or early retirement will
                      transfer; the other twenty-five percent will choose not to transfer and will
                      receive severance pay.
              4)      No programs will be terminated; therefore, all those who take full or early
                      retirement, or do not transfer, will be replaced at the new facility.
              5)      The savings from replacing personnel who retire will be calculated by using
                      the average salaries of those not eligible for retirement. This is because the
                      starting salaries of replacement personnel hired would be lower than the
                      salaries of those who retired.
       C)     Average Unemployment Compensation = $11,000 per person. We consider this to be
              a high estimate that could apply in any regional analysis.
       D)     Average Permanent Change of Station (PCS) costs = $54,180 per person. We
              consider this to be a high estimate that could apply in any regional analysis.
       E)     “Opportunity costs” represent disruption and move support costs and equal ten
              percent of the total programmatic value prior to the move.
       F)     Moving costs are based on the following assumptions:
              1)      The value of the equipment and materials to be moved is equal to half of the
                      value of the program.
              2)      The amount of tonnage to be moved is equal to the value of the equipment
                      divided by $10,000.
              3)      To calculate the total moving costs, multiply (1) the surface freight charge of
                      $1.33/ton/mile by (2) the distance between two points and (3) the tonnage of
                      equipment moved.
              4)      The in-transit loss of equipment and materials is equal to two percent of the
                      value of the equipment and materials moved.
                                                                                                               Appendix C
                                                                                                              Page 6 of 15
SECTION II: SAVINGS ANALYSIS

There are four categories of savings from moving the Bay St. Louis lab to the Pascagoula lab: (1)
reduction in force, (2) the savings from people taking early retirements, (3) the savings from people
taking full retirements, and (4) Operations and Maintenance (O&M).

Savings Summary
The following is a summary table of the annual savings listed above.

                                     Year 0             Year 1                 Year 2     Year 3     Year 4      Year 5

     RIF1                                              $47,584                $88,852    $88,852    $88,852     $88,852

     Early Retirement2                                  38,051                 38,051     38,051     43,522      43,522

     Retirement                                         79,754                 79,754     79,754     79,754      79,754

     O&M                                                93,500                 93,500     93,500     93,500      93,500

            Total Savings                            $258,889                $300,157   $300,157   $305,628    $305,628
1
    Net of Severance costs in Year 1 2Net of Retirement pay in Years 1 - 3


SECTION III: COSTS

There are five categories of Costs associated with moving the Bay St. Louis lab to the Pascagoula
lab: (1) RIF costs, (2) permanent change of station costs, (3) opportunity costs, (4) moving costs,
and (5) rehire costs.

Cost Summary
The following is a summary table of the annual costs listed above.

                                   Year 0               Year 1                 Year 2     Year 3     Year 4      Year 5

     RIF Costs1                                        $33,000

     PCS Costs                  $270,900

     Opportunity                                        79,700

     Moving Costs                  10,647

     Rehire                                            153,231               $153,231   $153,231   $153,231    $153,231

                  Total         $281,547             $265,931                $153,231   $153,231   $153,231    $153,231
1
 Unemployment Costs
                                                                                                 Appendix C
                                                                                                Page 7 of 15
SECTION IV: NET PRESENT VALUE ANALYSIS

Net Value
The net value equals the total row from the savings summary minus the total row from the cost
summary.

                       Year 0       Year 1           Year 2            Year 3          Year 4          Year 5

 Savings Total              $0    $258,889      $300,157          $300,157        $305,628        $305,628

 Costs Total          281,547      265,931       153,231           153,231         153,231         153,231

       Net Value   ($281,547)      ($7,042)     $146,926          $146,926        $152,397        $152,397


Net Present Value
Net present value takes the net value and puts it in current dollar value terms using the formula
NPV=1/(1+i)t ,where i is the discount rate and t is the year. The discount rate used in this analysis
equals the real interest rate on a five year treasury note, which equals 2.7 percent.

  Discount Rate      Year         Year          Year           Year              Year            Year

       2.7%            0            1            2                 3               4               5

 NPV               ($281,547)    ($6,857)     $139,302        $135,640          $136,992        $133,390

 Total NPV                                             $256,920
                                                                                            Appendix C
                                                                                           Page 8 of 15
PANAMA CITY LABORATORY
We conducted our cost/benefit analysis in accordance with OMB Circular A-94 (see Appendix B
page 2).

SECTION I: OVERALL ASSUMPTIONS

We made several assumptions in conducting our analysis. Most assumption we utilized are similar to
those used in prior NMFS consolidation studies. Some assumptions have been modified, such as the
amount of PCS costs and severance pay for affected personnel, to better reflect changed conditions.
       A)      Administrative Personnel
               1)      All those eligible for full or early retirement would take it.
               2)      All others will be RIFed and receive severance pay.
               3)      Only twenty-five percent of Panama City’s total administrative personnel will
                       be re-hired at Pascagoula.
       B)      Programmatic Personnel
               1)      All those eligible for full retirement will take it.
               2)      Fifty percent of those eligible for early retirement will take it; the other fifty
                       percent will transfer.
               3)      Seventy-five percent of those not eligible for full or early retirement will
                       transfer; the other twenty-five percent will choose not to transfer and receive
                       severance pay. These positions will be refilled.
               4)      All positions vacated by those who take full or early retirement will be refilled
                       because all programs are high priority.
               5)      All student hires and part-time personnel will not transfer, and will be RIFed.
                       However, these positions will be refilled in the new location.
               6)      The savings from replacing personnel who retire will be calculated by using
                       the average salaries of those not eligible for retirement. This is because the
                       starting salaries of replacement personnel hired would be lower than the
                       salaries of those who retired.
       C)      Average Unemployment Compensation = $11,000 per person. We consider this to be
               a high estimate that could apply in any regional analysis.
       D)      Average Permanent Change of Station (PCS) costs = $54,180 per person. We
               consider this to be a high estimate that could apply in any regional analysis.
       E)      “Opportunity costs” represent disruption and move support costs and equal ten
               percent of the total programmatic value prior to the move.
       F)      Moving costs are based on the following assumptions:
               1)      The value of the equipment and materials to be moved is equal to half of the
                       value of the program.
               2)      The amount of tonnage to be moved is equal to the value of the equipment
                       divided by $10,000.
               3)      To calculate the total moving costs, multiply (1) the surface freight charge of
                       $1.33/ton/mile by (2) the distance between two points and (3) the tonnage of
                       equipment moved.
                                                                                                            Appendix C
                                                                                                           Page 9 of 15
                        4)        The in-transit loss of equipment and materials is equal to two percent of the
                                  value of the equipment and materials moved.

SECTION II: SAVINGS ANALYSIS

There are five categories of savings from moving the Panama City lab to the Pascagoula lab: (1) sale
of property (2) Operations and Maintenance (O&M) (3) the savings from RIFing people at the lab,
(4) the savings from people taking early retirements, and (5) the savings from people taking full
retirements.

Savings Summary
The following is a summary table of the annual savings listed above.

                                  Year 0             Year 1                 Year 2     Year 3     Year 4      Year 5

    Sale of Property         $1,285,705

    O&M                                             $65,506                $65,506    $65,506    $65,506     $65,506

    RIF1                                            112,133                209,388    209,388    209,388     209,388

    Early Retirement2                                54,530                 54,530     54,530    109,598     109,598

    Full Retirement                                 148,632                148,632    148,632    148,632     148,632

           Total Savings     $1,285,705           $380,801                $478,056   $478,056   $533,124    $533,124
1
 Net of Severance costs in Year 1 2Net of Retirement pay in Years 1 - 3
                                                                                        Appendix C
                                                                                      Page 10 of 15
SECTION III: COSTS

There are five categories of Costs associated with moving the Panama City lab to the Pascagoula lab:
(1) RIF costs, (2) permanent change of station costs, (3) opportunity costs, (4) moving costs, and
(5) rehire costs.

Cost Summary
The following is a summary table of the annual costs listed above.

                              Year 0      Year 1      Year 2     Year 3     Year 4        Year 5

    RIF1                                 $88,000

    PCS                    $216,720

    Opportunity                           79,490

    Moving                   18,098

    Rehire                              322,546     $322,546   $322,546   $322,546      $322,546
                  Total    $234,818     $490,036    $322,546   $322,546   $322,546      $322,546
1
 Unemployment Costs


SECTION IV: NET PRESENT VALUE ANALYSIS

Net Value
The net value equals the total row from the savings summary minus the total row from the cost
summary.

                              Year 0      Year 1      Year 2     Year 3     Year 4        Year 5

    Savings Total         $1,285,705    $380,801    $478,056   $478,056   $533,124      $533,124

    Costs Total             234,818      490,036     322,546    322,546    322,546       322,546

           Net Value      $1,050,887   ($109,235)   $155,510   $155,510   $210,578      $210,578
                                                                                         Appendix C
                                                                                       Page 11 of 15
Net Present Value
Net present value takes the net value and an puts in and current dollar value terms using the formula
NPV=1/(1+i)t ,where i is the discount rate and t is the year. The discount rate used in this analysis
equals the real interest rate on a five year treasury note, which equals 2.7 percent.

  Discount Rate       Year            Year        Year        Year          Year          Year

       2.7%            0               1           2            3            4             5

 NPV               $1,050,887      ($106,363)   $147,441    $143,564      $189,292      $184,315

 Total NPV                                         $1,609,136
                                                                                           Appendix C
                                                                                         Page 12 of 15
OXFORD LABORATORY

We conducted our cost/benefit analysis in accordance with OMB Circular A-94 (see Appendix B
page 2).

SECTION I: OVERALL ASSUMPTIONS

We made several assumptions in conducting our analysis. Most assumption we utilized are similar to
those used in prior NMFS consolidation studies. Some assumptions have been modified, such as the
amount of PCS costs and severance pay for affected personnel, to better reflect changed conditions.

       A)     Administrative Personnel
              1)      All those eligible for full or early retirement will take it.
              2)      All others will be RIFed and receive severance pay.
              3)      Only twenty-five percent of Oxford’s total administrative personnel will be re-
                      hired at Beaufort.
       B)     Programmatic Personnel
              1)      All those eligible for full retirement will take it.
              2)      Fifty percent of those eligible for early retirement will take it; the other fifty
                      percent will transfer.
              3)      Seventy-five percent of those not eligible for full or early retirement will
                      transfer; the other twenty-five percent will choose not to transfer and will
                      receive severance pay. These positions will not be refilled.
              4)      None of those who take full or early retirements will be re-hired. We are
                      assuming that the Oxford programs will either be phased out or scaled back
                      permanently because they are lower priority; therefore, no programmatic
                      personnel should be re-hired.
              5)      The savings from not replacing personnel who retire will be calculated by
                      multiplying the average salaries of those eligible for retirement by the number
                      of people eligible for retirement.
       C)     Average Unemployment Compensation = $11,000 per person. We consider this to be
              a high estimate that could apply in any regional analysis.
       D)     Average Permanent Change of Station (PCS) costs = $54,180 per person. We
              consider this to be a high estimate that could apply in any regional analysis.
       E)     “Opportunity costs” represent disruption and move support costs and equal ten
              percent of the total programmatic value prior to the move.
       F)     Moving costs are based on the following assumptions:
              1)      The value of the equipment and materials to be moved is equal to half of the
                      value of the program.
              2)      The amount of tonnage to be moved is equal to the value of the equipment
                      divided by $10,000.
                                                                                                             Appendix C
                                                                                                           Page 13 of 15
                        3)        To calculate the total moving costs, multiply (1) the surface freight charge of
                                  $1.33/ton/mile by (2) the distance between two points and (3) the tonnage of
                                  equipment moved.
                        4)        The in-transit loss of equipment and materials is equal to two percent of the
                                  value of the equipment and materials moved.

SECTION II: SAVINGS ANALYSIS

There are five categories of savings from moving the Oxford lab to the Beaufort lab: (1) the sale of
the property, (2) the savings from RIFing people at the lab, (3) the savings from people taking early
retirement, (4) the savings from people taking full retirements, and (5) the savings from the
Operations and Maintenance (O&M) at Oxford.

Savings Summary
The following is a summary table of the annual savings listed above.

                                  Year 0             Year 1                 Year 2     Year 3     Year 4       Year 5

    Property Sale            $1,481,150

    RIF1                                            $58,604               $109,438   $109,438   $109,438     $109,438

    Early Retirement2                                60,682                 60,682     60,682    109,438      109,438

    Full Retirement                                 110,516                110,516    110,516    110,516      110,516

    O&M                                              48,000                 48,000     48,000     48,000       48,000

           Total Savings     $1,481,150           $277,802                $328,636   $328,636   $377,392     $377,392
1
 Net of Severance costs in Year 1 2Net of Retirement pay in Years 1 - 3
                                                                                         Appendix C
                                                                                       Page 14 of 15
SECTION III: COSTS

There are five categories of Costs associated with moving the Oxford lab to the Beaufort lab: (1)
RIF costs, (2) permanent change of station costs, (3) opportunity costs, (4) moving costs, and (5)
administrative rehire costs.

Cost Summary
The following is a summary table of the annual costs listed above.

                           Year 0     Year 1     Year 2        Year 3         Year 4        Year 5

    RIF1                             $33,000

    PCS                 $216,720

    Opportunity                       56,300

    Moving                19,670

    Adm Rehire                        72,240    $72,240       $72,240        $72,240       $72,240

               Total    $236,390    $161,540    $72,240       $72,240        $72,240       $72,240
1
 Unemployment Costs


SECTION IV: NET PRESENT VALUE ANALYSIS

Net Value
The net value equals the total row from the savings summary minus the total row from the cost
summary.

                           Year 0     Year 1     Year 2        Year 3         Year 4        Year 5

    Savings Total      $1,481,150   $277,802   $328,636      $328,636       $377,392      $377,392

    Costs Total          236,390     161,540     72,240        72,240         72,240        72,240

           Net Value   $1,244,760   $116,262   $256,396      $256,396       $305,152      $305,152
                                                                                           Appendix C
                                                                                         Page 15 of 15
Net Present Value
Net present value takes the net value and puts it in current dollar value terms using the formula
NPV=1/(1+i)t ,where i is the discount rate and t is the year. The discount rate used in this analysis
equals the real interest rate on a five year treasury note, which equals 2.7 percent.

  Discount Rate     Year          Year          Year            Year         Year          Year

       2.7%           0             1            2                  3         4              5

 NPV              $1,244,760    $113,205      $243,092        $236,701     $274,305      $267,094

 Total NPV                                             $2,379,158
                                                                                        Appendix D
                                                                                        Page 1 of 1
                     ALASKA FISHERIES SCIENCE CENTER ANALYSIS

We visited the Sand Point, Auke Bay, and Little Port Walter facilities during our audit and we spoke
with lab personnel, collaborators, and customers. Our detailed analysis of all the Alaska Center
facilities and of the programs being conducted there confirmed that the current Center structure is
adequate for NMFS’s needs. We recommend no changes at this time. Our rationale is presented
below:

We did not recommend closing the Sand Point facility because nearly all of the work being
conducted there is high priority. We considered the option of moving these programs and personnel
to the planned Auke Cape facility. Our programmatic analysis revealed that there is no logistical
advantage to moving Sand Point programs to Auke Cape. Our space analysis showed that there is
insufficient planned space to accommodate the programs. Finally, our cost benefit analysis
concluded that the costs associated with moving programs to Auke Cape are prohibitive. We
estimated the costs of moving personnel to Auke Cape and determined that, at a minimum, these
costs would amount to approximately $22.5 million. Add to this the costs associated with
transporting scientific equipment overseas and it becomes evident that, with no compelling reason to
move Sand Point programs to Auke Cape and no offsetting benefits, this is simply not a cost
effective option.

We accept NMFS’s plan to transfer programs and personnel from the Auke Bay lab to a proposed
facility in Auke Cape. Most of the Auke Bay programs are high priority, but they are currently being
conducted in a dilapidated facility. The new facility being planned at Auke Cape will adequately
accommodate the Auke Bay programs. During our analysis, however, we reviewed the status of the
Auke Cape project in detail. In 1994, we conducted an audit of NOAA’s proposal to construct a
new facility at Auke Cape (STL-5507-4-0001). At that time, we found that NOAA’s space and cost
estimates for the new facility were flawed. Upon reviewing the current Auke Cape space and cost
estimates, we found that the space assessments were still inflated and that cost estimates had nearly
doubled. As it stands, there will be space for 88 extra staff members.

We did not recommend closing the Little Port Walter field station for two primary reasons: (1) one
of the two programs at Little Port Walter is high priority, and (2) the facility provides unique
research capabilities for NMFS.

We did not recommend closing the Kodiak facility because the programs located there are high
priority. Although the research is not site-specific to Kodiak, there are significant advantages to
NMFS having a staging area for activities in western Alaska. Given that there are no other NMFS
facilities in this region to accommodate the Kodiak personnel, we decided not to recommend moving
the Kodiak programs.
                                                                                              Appendix E
                                                                                              Page 1 of 1
                    NORTHWEST FISHERIES SCIENCE CENTER ANALYSIS

We visited Montlake, Manchester, Newport, and Point Adams, and we conducted interviews with
appropriate lab personnel, collaborators, and customers. Our detailed analysis of all the Northwest
Center facilities and of the programs being conducted there confirmed that the current Center
structure is adequate for NMFS’s needs. Our rationale is presented below:

We did not recommend closing the Montlake lab because three out of the four programs being
conducted there are high priority. Because the research is not site-specific, we considered the
option of moving the Montlake programs to other suitable facilities. One option considered was
moving the programs to the Alaska Science Center’s Sand Point facility. This would have been in
conjunction with the potential recommendation (detailed in Appendix D, the “Alaska Center
Analysis”) to re-locate Alaska Center’s Sand Point personnel to the proposed Auke Cape facility
upon completion.

We found that the Sand Point facility does not have the specialized lab space and fresh water systems
required by the Montlake programs. Renovating Sand Point to accommodate these programs would
be costly and inefficient given that the required space and systems already exist at Montlake. In
addition, as outlined above, we do not recommend moving any Alaska Center programs out of Sand
Point. Therefore, Sand Point would not have adequate space to absorb the Montlake programs. No
other NMFS facilities in the general area could accommodate the large number of personnel
associated with the Montlake programs. As a result, we do not recommend moving the programs.

We did not recommend closing the Mukilteo lab because the research being conducted there is high
priority. We did not recommend moving the facility because this is not cost-effective--the Mukilteo
facility is a ‘leased’ facility for which NMFS pays no rent, and total operating and maintenance costs
at Mukilteo are only $10,800 per year.

We did not recommend closing the Pasco facility because it is conducting high priority research. We
did not recommend moving the Pasco programs and personnel because, although the research is not
absolutely site-specific, the facility’s location is extremely advantageous.

We did not recommend closing the Newport facility because it houses high priority work for both
the Alaska and Northwest Centers. We did not recommend moving the Newport programs because
the facility has access to high quality seawater and fish rearing/holding facilities not readily available
elsewhere.

We did not recommend closing the Point Adams facility because one of the programs being
conducted at the facility is high priority. In addition, no other agencies are conducting the lower-
priority work being conducted at Point Adams. We did not recommend moving the Point Adams
facility because the operating and maintenance costs are relatively low, and the facility provides a
good staging area for conducting Columbia River research.
                                                                                            Appendix F
                                                                                            Page 1 of 6
                   SOUTHWEST FISHERIES SCIENCE CENTER ANALYSIS

We visited the La Jolla and Pacific Grove facilities and spoke with lab directors, program officials,
and other appropriate parties. We conducted a phone interview with the Tiburon director, and the
SWC director spoke to us regarding the Honolulu lab’s programs and facility plans. After
considering the options available in the Southwest, we determined that for safety reasons, the La
Jolla and Tiburon facilities should be closed and their programs transferred to other NMFS facilities.
Our rationales for recommending closing certain labs and having others stay open is presented
below:

We do not believe the Pacific Grove facility should be closed because it is conducting high-priority
research. We do not believe the facility should be moved because it benefits from close association
with Fleet Numerical Meteorology and Oceanography Center. Furthermore, the operating and
maintenance costs for the facility are relatively low, making it less cost-effective to move it to
another location.

Our review led us to agree with NOAA’s internal decision to move the Tiburon lab to a more
suitable location, as the facility is currently in a grave state of disrepair. NOAA’s Western
Administrative Support Center determined it would be more cost-effective to relocate the research
staff than to renovate the existing facility.

We also recommend that the La Jolla facility be vacated. Although the science programs are high
priority and NMFS benefits from collocation with the Scripps Institute of Oceanography, the
geology of the site presents serious risk to the lab staff and the general public. Furthermore, none of
the programs at La Jolla are site-specific.

We interviewed a number of geologic experts from Scripps, the City of San Diego, and the private
sector, and we reviewed a number of reports and studies of the geologic features underlying the
NMFS buildings. Four significant points can be drawn from our work:

!      Wave action and storms will continue to erode the cliff, and the buildings now have
       inadequate setback from the cliff edge.

!      The lab was built on an existing landslide, and an earthquake could trigger cliff failure.

!      The Rose Canyon fault may run directly underneath the lab.

!      The beach beneath the lab is a popular area for the public to visit, and posting warning signs
       of the serious danger have not been successful in limiting use of the beach.

Given this situation, we recommend that two of the six La Jolla programs and the Center directorate
transfer to Santa Cruz. The two La Jolla programs recommended for transfer are Genetics and
Protected Species. NMFS currently plans to move programs and staff from Tiburon and Santa Rosa
                                                                                          Appendix F
                                                                                          Page 2 of 6
into this planned facility. Our review led us to agree with NOAA’s decision to move the Tiburon lab
to Santa Cruz. However, to increase the amount of space available for the incoming La Jolla
programs, we believe the NMFS Santa Rosa staff should remain in their current leased space. Even
without the Santa Rosa personnel, there still is not enough planned space at Santa Cruz to
accommodate the La Jolla staff and equipment associated with the programs to be transferred.
Therefore, we recommend that the planned Santa Cruz facility be expanded. Of the remaining four
La Jolla programs, Coastal Fisheries and West Coast Groundfish should be transferred to the
Newport lab; Large Pelagics should be transferred to the Honolulu lab; and Antarctic Research
should be transferred to the Alaska Center facility at Sand Point.

Coastal Fisheries and West Coast Groundfish should be transferred to the lab complex in Newport,
Oregon. Several agencies organizations space at this complex, including the Environmental
Protection Agency, Oregon State University, and NMFS. NOAA currently plans to remodel existing
space and construct additional space for both the University and NOAA. Upon reviewing NOAA’s
prefinal space assessment, we found that planned renovations included significant space allotments
for currently unauthorized program expansions. Furthermore, one of the buildings currently
occupied by EPA has vacant space, which EPA has expressed interest in sharing with NMFS. Given
this, we recommend that planned renovations and construction currently designated for unauthorized
program expansions be designated instead to accommodate La Jolla’s Coastal Fisheries and West
Coast Groundfish programs.

We recommend that the Large Pelagics program be moved to the Southwest Center’s Honolulu lab.
Honolulu has a similar program, and researchers in the two programs already have significant
interactions. Furthermore, NMFS is preparing to renovate existing space at Honolulu and transfer
approximately 14 regional office personnel from Long Beach to the renovated Honolulu lab. We
recommend that this transfer not take place and that, instead, personnel and equipment associated
with La Jolla’s Large Pelagics program move into renovated space in Honolulu.

We recommend that the Antarctic program be transferred to the Alaska Center and
programmatically combined with that Center’s Polar program. The Antarctic program is not site-
specific, and the Alaska Center’s Polar Program conducts complementary work. There is also space
available at Sand Point to absorb the personnel and equipment associated with the Antarctic
program. Our analysis revealed that it is more cost effective to move the Antarctic program to Sand
Point than to construct extra space at Santa Cruz.

We estimated the space needs of the two La Jolla programs to be moved to Santa Cruz and
determined that approximately 33,895 gross square feet of additional space needs to be constructed,
which would cost approximately $17,324,000. The net present value over a five year period
associated with expanding construction efforts at Santa Cruz and transferring La Jolla personnel and
equipment to Santa Cruz, Sand Point, Newport, and Honolulu equals approximately $19,956,000.
These costs are in addition to original NMFS Santa Cruz cost estimates.

Although this represents a large initial outlay for NMFS, the safety of the researchers who currently
work in unstable and possibly life threatening conditions is an overriding factor. Furthermore, it is
more cost-beneficial for NMFS to relocate La Jolla staff now under this plan than to postpone
action. NMFS currently plans to maintain the status quo with regards to the La Jolla facility.
                                                                                            Appendix F
                                                                                            Page 3 of 6
However, several geologic experts have maintained that it is only a matter of time before total cliff
failure occurs. If NMFS fails to adequately plan ahead, emergency measures will likely force NMFS
into making costly, inadequately planned facility decisions.

Assume, for example that NMFS does maintain the status quo at La Jolla. Also assume that within
five years, the La Jolla coastline degrades to a point where the facility becomes unoccupiable. The
cost of building a replacement facility in San Diego County for the entire La Jolla staff would be
approximately $33,486,000. This cost does not include costs that might be associated with leasing
temporary space and temporarily moving equipment should NMFS be forced to evacuate the La
Jolla facility before a replacement facility is built. Our recommendation will cost approximately
$19,956,000. By planning ahead to occupy the Santa Cruz facility, NMFS can potentially save
approximately $13,530,000.

We conducted our cost/benefit analysis of closing La Jolla and transferring its programs and
personnel to other NMFS facilities in accordance with OMB Circular A-94 (see Appendix B page 2.)

SECTION I: OVERALL ASSUMPTIONS

We made several assumptions in conducting our analysis. Most assumption we utilized are similar to
those used in prior NMFS consolidation studies. Some assumptions have been modified, such as the
amount of PCS costs and severance pay for affected personnel, to better reflect changed conditions.

       A)      Administrative Personnel
               1)      All those eligible for full or early retirement will take it.
               2)      All others will be RIFed and receive severance pay.
               3)      All of La Jolla’s total administrative personnel will be re-hired.
       B)      Programmatic Personnel
               1)      All those eligible for full retirement will take it.
               2)      Fifty percent of those eligible for early retirement will take it; the other fifty
                       percent will transfer.
               3)      Seventy-five percent of those not eligible for full or early retirement will
                       transfer; the other twenty-five percent will choose not to transfer and will
                       receive severance pay. These positions will be refilled.
               4)      All positions of those who retire or take early out will be refilled because all
                       programs are high priority.
               5)      The savings from replacing personnel who retire will be calculated by using
                       the average salaries of those not eligible for retirement. This is because the
                       starting salaries of replacement personnel hired would be lower than the
                       salaries of those who retired.
       C)      Average Unemployment Compensation = $11,000 per person. We consider this to be
               a high estimate that could apply in any regional analysis.
       D)      Average Permanent Change of Station (PCS) costs = $54,180 per person. We
               consider this to be a high estimate that could apply in any regional analysis.
       E)      “Opportunity costs” represent disruption and move support costs and equal ten
               percent of the total programmatic value prior to the move.
                                                                                           Appendix F
                                                                                           Page 4 of 6
       F)      Moving costs are based on the following assumptions:
               1)    The value of the equipment and materials to be moved is equal to half of the
                     value of the program.
               2)    The amount of tonnage to be moved is equal to the value of the equipment
                     divided by $10,000.
               3)    To calculate the total moving costs, multiply (1) the surface freight charge of
                     $1.33/ton/mile by (2) the distance between two points and (3) the tonnage of
                     equipment moved.
               4)    The in-transit loss of equipment and materials is equal to two percent of the
                     value of the equipment and materials moved.

SECTION II: SAVINGS ANALYSIS

There are five categories of savings from moving the La Jolla lab: (1) the savings from RIFing
people, (2) the savings from people taking early retirements, (3) the savings from people taking full
retirements, (4) permanent change of station costs not incurred by Santa Rosa personnel, and (5)
cost of living adjustment costs not incurred by Long Beach personnel.
                                                                                                                   Appendix F
                                                                                                                   Page 5 of 6
Savings Summary
The following is a summary table of the annual savings listed above.

                                     Year 0             Year 1                Year 2       Year 3       Year 4       Year 5

     RIF1                                           $769,389           $1,373,408      $1,373,408   $1,373,408   $1,373,408
     Early Retirement2                                 497,700               497,700     497,700      960,444      960,444

     Full Retirement                                  422,980                422,980     422,980      422,980      422,980

     PCS Savings               $1,679,580

     COLA Savings                                     166,743                166,743     166,743      166,743      166,743

         Total Savings         $1,679,580         $1,856,812           $2,460,831      $2,460,831   $2,923,575   $2,923,575
1
    Net of Severance costs in Year 1 2Net of Retirement pay in Years 1 - 3


SECTION III: COSTS

There are eight categories of costs associated with moving the La Jolla lab: (1) construction costs,
(2) RIF costs, (3) permanent change of station costs, (4) opportunity costs, (5) moving costs (6)
rehire costs, (7) Hawaiian COLA adjustment costs, and (8) lease costs.

Cost Summary
The following is a summary table of the annual costs listed above.

                                     Year 0             Year 1                Year 2       Year 3       Year 4       Year 5

     Construction             $17,324,000

     RIF1                                            $352,000

     PCS                         1,787,940

     Opportunity                                       701,380

     Moving                         471,621

     Rehire                                        2,441,150           $2,441,150      $2,441,150   $2,441,150   $2,441,150

     COLA                                             129,737                129,737     129,737      129,737      129,737

     Lease                                            162,495                162,495     162,495      162,495      162,495

                  Total      $19,583,561          $3,786,762           $2,733,382      $2,733,382   $2,733,382   $2,733,382
1
 Unemployment Costs
                                                                                                    Appendix F
                                                                                                    Page 6 of 6
SECTION IV: NET PRESENT VALUE ANALYSIS

Net Value
The net value equals the total row from the savings summary minus the total row from the cost
summary.

                         Year 0          Year 1            Year 2         Year 3          Year 4          Year 5

 Savings Total       $1,679,580      $1,856,812        $2,460,831     $2,460,831   $2,923,575      $2,923,575

 Costs Total         19,583,561       3,786,762         2,733,382      2,733,382    2,733,382       2,733,382

       Net Value   ($17,903,981)    ($1,929,950)       ($272,551)     ($272,551)     $190,193        $190,193


Net Present Value
Net present value takes the net value and puts it in current dollar value terms using the formula
NPV=1/(1+i)t ,where i is the discount rate and t is the year. The discount rate used in this analysis
equals the real interest rate on a five year treasury note, which equals 2.7 percent.

  Discount Rate          Year               Year           Year        Year         Year            Year

       2.7%               0                   1              2           3            4               5

 NPV                ($17,903,981)       ($1,879,211)    ($258,409)   ($251,615)    $170,967        $166,472

 Total NPV                                                ($19,955,777)




CALCULATION OF SAVINGS (COST AVOIDANCE):

         Represents the NPV (a net cost) of additional
         construction and transfer of personnel and programs
         per our recommendations                                              $19,955,777

         Represents the cost of rebuilding the La Jolla lab
         in the same area when the lab becomes unusable
         because of geological problems                                       $33,486,000

         Net benefits (a cost avoidance)                                      $13,530,223
                                                                                          Appendix G
                                                                                          Page 1 of 2


                            CLOSURE/CONSOLIDATION CRITERIA




The above is a visual representation of our closure and consolidation criteria. There are five main
decision factors by program1:


!      Site-specificness.




        1
        A “program” is the equivalent of an “Activity” as identified by NMFS during its recent
NOAA Laboratory Consolidation Review. During our fieldwork we interviewed NMFS staff to
determine if research activities had significantly changed since the NOAA review and made
appropriate modifications. We also noted that laboratory organizational structures did not always
conform to identified research thrusts and took this into account when developing
recommendations.
                                                                                            Appendix G
                                                                                            Page 2 of 2
!      Relative priority.2
!      Duplication of low-priority research by other agencies.
!      Availability of host facilities.
!      Costs vs. Benefits of moving programs.

Programs were analyzed individually and in conjunction with the facility as a whole. Several facility
factors were also taken into account:

!      Cost.
!      Condition.
!      Utilization.
!      Special Features.

Any one of these facility factors can override a decision to retain, terminate, or move a program.
For instance, if a program is both high priority and site-specific, our analysis initially leads us to a
“Stay” conclusion. However, if a review of the facility factors reveals that the buildings are
underutilized, expensive to operate and maintain, and in poor condition, these factors could override
the initial “Stay” conclusion and possibly result in a “Move” conclusion.

To address the program and facility criteria outlined in the above chart, we relied on several sources
of data:

!      Programmatic, facility, and personnel information obtained through an OIG data request.
!      Programmatic, facility, and personnel information obtained by the OIG during site visits.
!      Basic program and facility data gathered during NMFS’s Laboratory Consolidation Study.
!      Information contained in previous NMFS laboratory reviews.
!      Information contained in NOAA administrative service center property files and central
       personnel databases.

The results of our analyses are detailed in Appendices B through F.




        2
         To determine relative priority, we multiplied the mission priority ratings and the expected
economic benefit ratings developed by NMFS during the recent NMFS Laboratory Consolidation
Review for each program. We designated as high priority those programs that scored 6 or above
in this calculation. For additional information, see Appendix H. We assumed that all research
designated as high priority would continue.
                                                                                       Appendix I
                                                                                       Page 1 of 2

                   OIG RELIANCE ON DATA IN NOAA’S
            NMFS LABORATORY CONSOLIDATION STUDY REPORT
                           DATED JUNE 1996


!   Background

    NOAA conducted a consolidation study of NMFS laboratories and issued a report in June
    1996. The closure/consolidation options presented in NOAA’s report were based, in large
    part, on the scores calculated by a linear numerical decision model developed for the study.
    The decision model included eight variables for each labs’ science programs. The decision
    model included five variables for each lab facility. NOAA obtained data for all the variables
    and subjected the data to a validation process. The program and facility scores were
    calculated from the data. NOAA provided us with the validated data and scores. While OIG
    representatives observed portions of the data gathering process, OIG representatives did not
    participate in the validation process of the NOAA review team.

!   Science program scores and expected economic benefits.

    One variable in NOAA’s numerical model was the mission score. NMFS administered a
    questionnaire to its senior management at headquarters and in the field. The process was
    designed to derive a score that reflected the relative importance of 87 science programs
    conducted throughout the NMFS lab system. The mission numerical scores fell between 3
    and 10.

    An additional variable was the economic benefit score. The scores were assigned by the lab
    directors and subjected to a validation process by the NOAA science review team. Expected
    economic benefit was a function of: (1) the likelihood that the scientific activity will be
    successful, (2) the value of the results if the activity is successful, and (3) the costs. The
    economic benefit scores fell between .7 and 1. The product of the scores (mission score X
    economic benefit score) was the most significant component of NOAA’s decision model.
    We relied on the mission and economic benefit scores because of NOAA expertise in this
    area. While we were not part of NOAA’s validation process, we believe that the NOAA
    process removed as much subjectivity as possible, and the resultant program scores were a
    reasonable assessment of the relative priorities of the lab science programs.
                                                                                    Appendix I
                                                                                    Page 2 of 2


!   Use of scores to establish high and low priority science programs

    We used the mission and economic benefit scores to establish the relative priority of NMFS’
    science programs at each lab. We converted the numerical scores described above to high or
    low priority. We classified as high priority, 72 science programs whose mission and
    economic benefits scores were six and above. This designation included science programs
    that support core NMFS mission areas of fisheries management, protection and recovery of
    endangered species, protection and conservation of marine mammals, and conservation of
    coastal ecosystems.

    We classified as low priority, 15 science programs whose mission and economic benefits
    scores were below six. This designation included science programs that support NMFS
    mission areas of aquaculture, maintaining biodiversity, and seafood safety. While arguably
    these 15 programs may be considered important research areas, these programs are lower in
    priority to the research programs that support NMFS core mission.

    Because we used a different methodology in conducting our review, we did not use the other
    data sets obtained during NOAA’s lab consolidation review other than for background
    information. .

!   Additional references to the NOAA’s study

    In those instances where the NOAA consolidation study made major closure/consolidation
    recommendations that differed significantly from our recommendations, we presented our
    analyses that led to our differing conclusions. The significant departures from the NOAA
    study are the NOAA recommendations for the Northwest and Alaska Science Centers. Our
    detailed analyses of these centers are presented in Appendices D and E to the report.
